<html>
<title> - ENSURING AGENCY COMPLIANCE WITH THE FREEDOM OF INFORMATION ACT (FOIA)</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
 ENSURING AGENCY COMPLIANCE WITH THE FREEDOM OF INFORMATION ACT (FOIA)

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 3, 2015

                               __________

                           Serial No. 114-91

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                      
                      
                      
                      
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 22-472 PDF              WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
                 
                 
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
                      Katy Rother, Senior Counsel
                    Sharon Casey, Deputy Chief Clerk
                    
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 3, 2015.....................................     1

                               WITNESSES

Ms. Joyce A. Barr, Chief FOIA Officer, U.S. Department of State
    Oral Statement...............................................     8
    Written Statement............................................    10
Ms. Melanie Anne Pustay, Director, Office of Information Policy, 
  U.S. Department of Justice
    Oral Statement...............................................    19
    Written Statement............................................    21
Ms. Karen Neuman, Chief FOIA Officer, U.S. Department oF Homeland 
  Security
    Oral Statement...............................................    29
    Written Statement............................................    31
Mr. Brodi Fontenot, Chief FOIA Officer, U.S. Department of the 
  Treasury
    Oral Statement...............................................    36
    Written Statement............................................    37
Ms. Mary Howard, Director, Privacy, Governmental Liaison, and 
  Disclosure, Internal Revenue Service
    Oral Statement...............................................    40
    Written Statement............................................    42

                                APPENDIX

RESPONSE from Ms. Barr DOS to Questions for the Record...........    94
RESPONSE from Ms. Pustay DOJ to Questions for the Record.........   110


 ENSURING AGENCY COMPLIANCE WITH THE FREEDOM OF INFORMATION ACT (FOIA)

                              ----------                              


                        Wednesday, June 3, 2015

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 9:12 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, Gosar, Gowdy, Meadows, DeSantis, Mulvaney, 
Buck, Walker, Hice, Russell, Carter, Grothman, Hurd, Palmer, 
Cummings, Norton, Lynch, Connolly, Cartwright, Duckworth, 
Kelly, Lawrence, Watson Coleman, Plaskett, DeSaulnier, and 
Welch.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    We appreciate all of you being here for the third panel of 
this 2-day hearing, ``Ensuring Agency Compliance with the 
Freedom of Information Act.''
    The President has, ``committed to creating an unprecedented 
level of openness in government.'' Those were his words. That 
is not the case when it comes to filling FOIA requests. The 
backlog of FOIA claims has more than doubled since the 
President has taken office.
    In March 2014, the Associated Press reported the Obama 
administration more often than any other administration had 
censored government files or outright denied access. Last year, 
the administration used exemptions to withhold information more 
than 550,000 times. Agencies must consult with the White House 
on, ``all document requests that may involve documents with 
White House equities.'' Just in the last year, the government 
fully denied access or censored records in at least 250,000 
cases, or roughly 39 percent of all requests. This is the 
highest number of denials in the history of FOIA.
    Yesterday, we heard from individuals who waited years to 
get public records they requested. These requests came from 
media--national, reputable media organizations, as well as 
individuals. The witnesses yesterday told us the FOIA system is 
broken and probably broken by design.
    In preparing for this hearing, the committee received 
numerous examples of delays, unreasonable redactions, and 
abusive fees, all of which hindered transparency.
    For instance, the EPA strategically avoided disclosure 
under FOIA when discussing the development of the Pebble Mine 
in Bristol Bay, Alaska. Documents obtained by the committee 
show that the EPA employees contemplated and advocated for a 
preemptive veto of the project well before the petition was 
submitted to the EPA.
    The IRS contacted one requester, Colin Hanna, on four 
separate occasions to explain it needed more time to respond to 
his FOIA request, but after 2 years they closed his request, 
asserting Mr. Hanna failed to reasonably describe his requested 
documents.
    GSA identified 70,000 records as responsive to a FOIA 
request on its Green Buildings Initiative and then used the 
number of records as a reason to close a request from the 
Taxpayer Protection Alliance.
    A requester waited 10 months before the DEA told him that 
his request for 13,000 documents related to the capture of 
Mexican drug lord El Chapo would cost $1.4 million.
    One 26-year-old freelance journalist wrote the committee 
about his first experience with FOIA, saying, ``I often 
describe the handling of my FOIA request as the single most 
disillusioning experience of my life.''
    The responses are enlightening and continue to come in. 
They seem to be numerous, bipartisan, across the board, 
consistent, and just absolutely frustrating.
    We also saw unreasonable and inappropriate redactions, 
including many from the FCC. Unredacted documents produced by 
the committee show the FCC blacked out the Chairman's initials 
on every email he sent or received--blacked them out. In doing 
so, the FCC claimed a personal privacy exemption that isn't 
permissible for use even with lower-level staff.
    The FCC also claimed that staff commentary like ``wow'' and 
``interesting'' were deliberative and redacted them under a 
(b)(5) exemption. The time and expense that it takes to go 
through and do such silly, silly things is so frustrating and 
ridiculous. It gets very frustrating to hear anybody claim 
that, oh, well, we spend this exorbitant amount of money, when 
you are going through and blacking out ``wow'' and 
``interesting'' and the name--yesterday--one of my favorites, 
personal favorites, is blacking out the name of the Department 
of Defense person who sang the national anthem, as if that is 
some state secret.
    In one instance, simply quoting an attached press release 
qualified for a redaction, while the press release itself was 
released in full. It is amazing how many instances we have of 
publicly available information that is on the Department's Web 
site, comes back via a FOIA as redacted information. And a 
press release--press release--that it was publicly released is 
something that you have to hold back from the public? It makes 
no sense.
    How can we trust the government's redactions when we have 
examples of such unnecessary and, in many cases, inappropriate 
redactions?
    Despite significant corruption within the agency in recent 
years, the IRS is still obstructing taxpayers' efforts. Just 
getting the witness here today required a subpoena. The other 
four agencies we asked to invite their senior FOIA officers, 
they all agreed, they all showed up. Not the IRS. Nope, not the 
IRS. We can't have that. There is only 1 person at the IRS out 
of 90,000 that can testify, Mr. Koskinen. How wrong he is.
    Ms. Howard, we appreciate you being here, but I should not 
have to issue a subpoena to get your presence here. We are 
talking about openness, transparency. We want to hear from you. 
You have dealt with this for years. But yet we had to issue a 
subpoena in order to get it.
    And when we sent a letter to all five of the departments 
and agencies asking for some basic information, a one-page 
request, anywhere between two and eight different examples that 
we wanted information, Department of Justice, at least they 
sent us a letter, at least they gave us something. It was 
terribly incomplete. The IRS, no letter. Nothing.
    We send a request to you, I send a subpoena to you, and you 
give us nothing? These other four did. I am telling you, we 
will drag the IRS up here every single week if we have to. You 
are going to respond to the United States Congress. You are 
going to respond to the American people. You work for the 
American people. You are not going to just drag us around. 
Because you know what? If it was the other way around, if the 
IRS went after an individual, you wouldn't put up with it. 
There is no way you would put up with this.
    We expect you to respond to requests from the United States 
Congress. We have a right to see it. We have a constitutional 
duty to perform our oversight responsibilities. And for you to 
not respond to this committee in a timely fashion by giving us 
an electronic copy, which is what you were supposed to do, 
which the other four figured out, is not appropriate. We don't 
have that material, and we wanted it before the hearing. And I 
had to get a subpoena to drag you here, and it is wrong.
    I have heard personally from multiple FOIA requesters that 
they wait and they wait and they wait, and, when they finally 
get a response, the request is either flatly denied or the 
pages are blacked out. We saw examples of that yesterday. So 
why is this necessary? And there are some cases where you do 
have to redact material. I understand that. I understand that. 
I appreciate that. But the lack of consistency is just 
stunning. The time that it takes is just unbelievable.
    Department of Justice, as the FOIA litigator and the 
provider of agency-wide guidance, ought to be the model agency, 
but we know that it is not. The Department of Justice denied 
approximately 40 percent of its FOIA requests in the fiscal 
year 2014. Three percent of FOIA requests were denied on the 
basis of exemptions. Thirty-seven percent of requests were 
denied for other reasons. Five percent of all requests were 
denied on the basis of claiming documents were, ``not 
reasonably described.''
    DHS is drowning in FOIA requests and needs to ensure the 
right resources are put towards properly clearing these 
backlogged cases. Department of Homeland Security receives 
about one-third of all FOIA requests and is responsible for 
about two-thirds of the Federal backlog. So it was particularly 
disappointing to see the DHS FOIA program in the GAO's 2015 
duplication report. Even the GAO has come in and said this is a 
terribly mismanaged, ill-executed system, so much so that 
there's highlights in the GAO's 2015 duplication report.
    My disappointment grew yesterday when Lisette Garcia from 
the FOIA Research Center revealed to us the DHS has hired 
contractors for the primary purpose of closing, rather than 
completing, cases. We would like to explore that.
    Individuals requesting records from Homeland Security might 
hear from contractors multiple times inquiring about whether or 
not they are still interested in their requests. That always 
cracks me up, right? A citizen, person from the media, goes out 
of their way to put in a FOIA request; so much time goes by 
that the government comes back to them and says, are you still 
interested? That takes time and resources.
    And the State Department is as bad, if not worse, than DHS 
on FOIA compliance. The agency has open cases dating back for 
decades--decades. Last year, the State Department failed to 
fully respond to more than 65 percent of its requests. The 
Center for Effective Government graded 15 of the top FOIA 
agencies and gave the State Department an F on FOIA processing.
    The agencies before the committee today need to bring 
sunshine to their FOIA programs. Agency leadership has failed 
to make FOIA a priority, and that makes the job of the 
witnesses before the committee much more difficult, if not 
impossible.
    We know you have a tremendous amount of requests coming 
your direction. There are a lot of good people who work in your 
departments and agencies, and we thank them for their services. 
Not everything is bad. But it is our role and responsibility to 
understand how it really works, what you are up against, what 
you are dealing with in a very candid way so that we can help 
make it better and that we can understand it. And there 
undoubtedly have to be changes. My guess is you want to see 
some changes. We want to see some changes. So we want to ferret 
that out.
    We have heard from the people that are very critical, but 
you are the people who are right there on the front lines, and 
you represent hundreds and literally thousands of people who 
are trying to do their job and deal with the tensions that come 
from political persuasions that have been on both the Democrat 
and Republican side of the aisle. You have career professionals 
who have been there through lots of different organizations. We 
want to hear candidly from you what is working, what is not 
working. But give us candid information so we can help better 
understand it. That is all we ask today.
    We thank you again for your presence.
    And, at this time, I will now recognize the ranking member, 
Mr. Cummings, for his opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman. And I 
thank you for holding these very important hearings on the 
Freedom of Information Act, which is the cornerstone of our 
Nation's open-government laws.
    Thank you also to our agency witnesses for being with us 
today.
    You do have a critical responsibility, which is to make 
Federal records available to the American public as effectively 
and efficiently as possible. You are also charged with 
implementing the directive President Obama issued on his first 
day in office, to implement a new presumption of openness that 
reverses the policy of withholding information embraced by the 
Bush administration.
    Your job is also extremely difficult and is getting harder. 
You and, by implication, the President are being blamed for the 
increase in FOIA backlogs.
    As we heard at our hearing yesterday, FOIA backlogs have 
increased in part as a result of cuts to agency budgets and the 
dwindling number of FOIA personnel forced to process record 
numbers of incoming requests. But we did not just only hear 
that. Mr. McCraw of The New York Times talked about a culture 
of unresponsiveness. And I hope that we will get to that and 
talk about that, because I agree with the chairman. In order 
for us to get to the bottom of this, we have to have an honest 
assessment of what is going on.
    There were a number of witnesses that came before us 
yesterday that talked about a fear of people who are dealing 
with the FOIA requests, honoring them the way they should be, 
because they are afraid to get in trouble. If that is the case, 
we need to hear about that.
    Now, going back to personnel, the number of FOIA requests 
skyrocketed from 2009 to 2014. In 2009, when President Obama 
took office, there were about 558,000 requests submitted to the 
Federal agencies. By 2014, that number rose to more than 
714,000, a surge of 28 percent. That is quite a surge.
    On the other hand, the total number of full-time agency 
FOIA personnel dropped to its lowest point since President 
Obama took office. In 2009, the number of full-time FOIA staff 
at Federal agencies was 4,000. In 2014, that number dropped to 
3,838, a decrease of about 4 percent.
    It seems obvious that Congress cannot continue to starve 
Federal agencies for resources through budget cuts, staffing 
reductions, sequestration, and government shutdowns and then 
blame those agencies for not being able to do their jobs 
effectively.
    But, again, I want to go back. I want us to not only deal 
with the personnel issues, but this whole culture that Mr. 
McCraw talked about of unresponsiveness, I want to deal with 
that, too, because I want the total picture so that we can be 
effective and efficient in trying to remedy this situation.
    If we want FOIA to work, we need to restore adequate 
funding, staffing, and training so agencies can handle the 
increasing workloads they will continue to face. That is 
another issue. Is there an issue of training? It is one thing 
to have personnel; it is another thing to have personnel that 
are properly trained.
    But this is not what House Republicans are doing. Today, 
right now, down the hall in the Appropriations Committee, 
Republicans are voting to withhold nearly $700 million--hello--
$700 million from the State Department's operational budget 
until it improves its document production processes. The 
operational budget includes the salaries for all--for all--of 
the State Department's FOIA employees.
    Let me say that again. Today, with a record number of FOIA 
requests and with record low FOIA staffing, the answer from the 
Republicans is that we are going to withhold two-thirds of a 
billion dollars, more than all State Department FOIA staff 
salaries combined. How in the world is this supposed to help? 
It simply does not make sense.
    We know that there are problems with FOIA. We know there 
are delays. We know that we must do better. But it is hard to 
imagine a more counterproductive attack on the FOIA process.
    I also take issue with the claims that President Obama has 
not been one of the most aggressive and forward-thinking 
Presidents in the history in pressing for more open government. 
I have often said that he would never get credit for anything. 
If things go wrong, they blame him; if things go right, he gets 
no credit. Those who try to argue that President Bush took the 
same kind of unprecedented transparency actions as President 
Obama must have amnesia. There simply is no comparison--none.
    Beyond ordering the presumption of openness for FOIA, the 
Obama administration issued a national action plan to establish 
a consolidated FOIA portal and enhance training for FOIA 
professionals. President Obama did that. It established a FOIA 
advisory committee to improve implementation and increase 
proactive disclosures of government information. President 
Obama did that. The administration implemented a new policy of 
disclosing White House visitor records. President Obama did 
that. It established ethics.data.gov, which posts lobbying 
disclosure reports, travel reports, and Federal Elections 
Commission filings all in one place, and it has made enormous 
amounts of government information available through data.gov. 
That is right, President Obama did that.
    Finally, I suspect that some of my colleagues will continue 
their focus on former Secretary of State Hillary Clinton and 
her emails, so let's review the facts.
    On December 5, 2014, Secretary Clinton provided more than 
30,000--30,000--emails, totaling about 55,000 pages, to the 
State Department. The Department has those emails and is 
currently reviewing them to make them available to the public 
under FOIA.
    This is a sharp contrast to former Secretary of State Colin 
Powell, who admitted that he used a personal email account for 
official business all the time. Unlike Secretary Clinton, 
Secretary Powell did not--did not--preserve any of his official 
emails from his personal account, and he did not turn them over 
to the State Department.
    I am not naive; I understand the Republican focus is on 
Hillary Clinton as she runs for President. But if we really 
want to review compliance with FOIA, if we really want to 
review it and straighten it out and make it right and have the 
FOIA laws do what they are supposed to do and if we really want 
to be most effective and efficient, we should not do so 
selectively by ignoring facts based on political expediency. As 
I have often said, we are better than that.
    To conclude, there is a major--a major--bipartisan step we 
can take to improve FOIA now. In February, I joined with 
Representative Issa--yeah, that is what I said--I joined with 
former Chairman Issa, our former chairman, on a bipartisan 
basis to introduce the FOIA Oversight and Implementation Act. 
We passed it out of our committee unanimously, out of this 
committee, unanimously, several months ago. And I hope we can 
move forward in a bipartisan way to pass this bill.
    Now, the chairman said yesterday to me that we are going to 
see what we can do to work that out, and what we need from you 
are suggestions. I am sure maybe all of you are familiar with 
653, and if there are things that you think we can do to 
improve that bill to make it so that it can be more effective 
and efficient and that you can do your jobs better, then we 
want to know it.
    Ladies and gentlemen, we can go around and around and 
around and around and around in circles, and we will be talking 
about this same stuff 10 years from now, and the backlog will 
be even greater. And so I look forward to hearing what you all 
have to say. Again, give us the good, the bad, and the ugly so 
that we can now effectively address this issue.
    And, Mr. Chairman, I really thank you for your indulgence. 
With that, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will hold the record open for 5 legislative days for any 
members who would like to submit a written statement.
    Chairman Chaffetz. We will now recognize our first panel of 
witnesses. Let me introduce them.
    Ms. Joyce Barr is the Chief FOIA Officer with the 
Department of State and has been involved in the FOIA process 
for the last 4 years. Ms. Barr was confirmed as the Assistant 
Secretary for Administration in December of 2011. As Assistant 
Secretary, she is responsible for the day-to-day administration 
of a variety of functions, ranging from logistics, records 
management, privacy programs, the Working Capital Fund, as well 
as Presidential travel.
    We appreciate you being here.
    Ms. Melanie Anne Pustay--did I say that properly?--is the 
Director of the Office of Information Policy at the Department 
of Justice since 2007 and has worked with FOIA for at least the 
last 12 years. The Office of Information Policy, sometimes 
referred to as OIP, is responsible for developing guidance for 
executive branch agencies on the Freedom of Information Act. 
OIP is charged with ensuring the President's FOIA memorandum 
and the Attorney General's FOIA guidance are fully implemented 
across the government. Before becoming Director, she served 8 
years as the Deputy Director for OIP, where she was responsible 
for the Department's responses to access requests made to the 
Department's senior leadership offices.
    Ms. Karen Neuman serves as the chief privacy officer and 
Chief FOIA Officer within the Department of Homeland Security. 
In her role as chief privacy officer, Ms. Neuman is responsible 
for evaluating department-wide programs, systems, technologies, 
and rulemaking for potential privacy impacts. She has extensive 
expertise in privacy law that helped inform privacy policy 
development both within the Department and in collaboration 
with the rest of Federal Government. She centralizes both FOIA 
and Privacy Act operations to provide policy and programmatic 
oversight and support implementation across the Department.
    Mr. Brodi Fontenot serves as the Chief FOIA Officer and 
Assistant Secretary for Management in the Department of 
Treasury. He has served as the Chief FOIA Officer since 
January--for the last--which year did you become that?
    Mr. Fontenot. Just this year.
    Chairman Chaffetz. Just this year. I wanted to make sure I 
had that right. January of this year.
    Mr. Fontenot serves as the Secretary of Treasury on the 
development and execution of treasury's budget and strategic 
plans and the internal management of the Department and its 
bureaus. In January 2014, President Obama nominated him as the 
Treasury's Chief Financial Officer.
    Ms. Mary Howard is the Director of the IRS' Privacy, 
Governmental Liaison, and Disclosure Division in the United 
States Department of Treasury. She has served in this role 
since January of 2014. In this role, she is responsible for 
managing a multifaceted privacy program and ensuring compliance 
with the Privacy Act, the Freedom of Information Act, and the 
Internal Revenue Code known as 6103. Ms. Howard represents the 
IRS' interests in identity theft, information protection, 
disclosure, and data-sharing. Ms. Howard began her career at 
the IRS in 1988 as a revenue agent and has served in various 
roles throughout the agency and throughout her career.
    We appreciate you all being here.
    If you would please rise and raise your right hands, 
pursuant to committee rules, the witnesses are to be sworn 
before they testify.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you.
    Let the record reflect that all witnesses answered in the 
affirmative.
    As you take your seat, we would ask that you limit your 
testimony to 5 minutes. Your full written statement will be 
made part of the record.
    And, with that, we will now start with Ms. Barr, and you 
are now recognized for 5 minutes.

                       WITNESS STATEMENTS

                   STATEMENT OF JOYCE A. BARR

    Ms. Barr. Thank you, Chairman Chaffetz, Ranking Member 
Cummings, and members of the committee. Good morning. Thank you 
for the invitation to appear before you today.
    My name is Joyce Barr, and I serve as the Assistant 
Secretary for Administration as well as Chief FOIA Officer for 
the State Department. I am a career Foreign Service officer, 
with over 35 years of experience serving around the world.
    Thank you for your interest in and advocacy for improving 
transparency to the public. We share that goal at the 
Department and work every day to achieve it.
    In addition to providing a range of support services around 
the world, the Bureau of Administration is also responsible for 
responding to requests under FOIA as well as managing and 
maintaining official department records. The State Department 
is committed to openness. It is critical to ensuring the public 
trust and to promoting public collaboration with the U.S. 
Government.
    However, meeting our commitment to openness is very 
challenging. We have a large backlog of over 16,000 FOIA 
requests. We know this backlog is unacceptable and are working 
to reduce it. Last year, we achieved a nearly 23-percent 
reduction in our appeals backlog by streamlining case 
processing. We made progress; more is needed.
    The backlog is due to several factors. Our caseload 
increased over 300 percent since 2008. In fiscal year 2008, the 
Department received fewer than 6,000 new FOIA requests, but in 
fiscal year 2014, we received nearly 20,000. Since the 
beginning of this fiscal year, we have already received over 
15,000 new requests.
    Second, many of these cases are increasingly complex. Other 
national security agencies are exempt from release of some 
information under the FOIA. As a result, requesters often come 
only to the Department to request information on any and all 
national security issues. The Department is often the public's 
first and only destination for documents on these issues.
    These complex requests require multiple searches throughout 
many of our 285 missions across the globe. They involve the 
review of classified or highly sensitive materials and require 
coordination with other Federal agencies. They can generate 
large amounts of material that must be reviewed by State and 
interagency subject-matter experts across the Federal 
Government.
    We receive many complaints about delays, but our goal is to 
do everything we can to complete each request as soon as 
possible.
    Secretary Kerry recently reinforced our commitment to 
transparency in his March 25 letter to our inspector general. 
In that letter, he recognized the work that has already been 
done and noted the Department is acting on a number of 
challenges to meet its preservation and transparency 
obligations. The Secretary asked the inspector general to 
ensure we are doing everything we can to improve and to 
recommend concrete steps that we take to do so.
    I am here as the Department's senior FOIA official to 
assure you that we have committed to working cooperatively with 
the IG with his review and any recommendations that may follow.
    My testimony for the record includes information about 
related issues, such as our FOIA Web site and the role we play 
in helping the public get access to information from 
Presidential libraries.
    Again, the Department of State is committed to public 
access to information.
    Mr. Chairman, I thank the committee for the opportunity to 
testify today and would be pleased to address questions that 
you or any other member of the committee may have on FOIA 
within the State Department. Thank you.
    [prepared statement of Ms. Barr follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
    Chairman Chaffetz. Thank you. I appreciate it.
    Ms. Pustay, you are now recognized for 5 minutes.
    If you can make sure that microphone is kind of pulled 
straight and tight to your--up there. If you straighten it out 
and turn it on, that would be great.
    Ms. Pustay. Okay.
    Chairman Chaffetz. Thank you.

                STATEMENT OF MELANIE ANNE PUSTAY

    Ms. Pustay. Are we good?
    Good morning, Chairman and Ranking Member Cummings and 
members of the committee. I am pleased to be here today to 
discuss the FOIA and the Department of Justice's ongoing 
efforts to encourage agency compliance with a very important 
law.
    There are several areas of success that I'd like to 
highlight today. Despite receiving continued record high 
numbers of FOIA requests and operating at the lowest staffing 
levels in the past 6 fiscal years, agencies have continued to 
find ways to improve their FOIA administration. Seventy-two out 
of the 100 agencies subject to the FOIA ended the fiscal year 
with low backlogs of fewer than 100 requests. Processing nearly 
650,000 requests, the government also continued to maintain a 
high release rate of over 91 percent.
    Agencies overall also continued to improve their processing 
times. For a number of years, OIP has encouraged agencies to 
focus on their simple track requests, with a goal of processing 
those requests within an average of 20 working days. And I'm 
very pleased to report that this past fiscal year the 
government's overall average was 20.5 days for those simple 
track requests.
    And there's also many other achievements that simply can't 
be captured by statistics. Agencies continue to post a wide 
variety of information online in open formats. They're making 
discretionary releases of otherwise exempt information. They're 
utilizing technology to help improve FOIA administration.
    The Department of Justice continued to work diligently 
throughout the year to both encourage and assist agencies in 
their compliance with the FOIA. I firmly believe that it's 
vital that FOIA professionals have a complete understanding of 
the law's legal requirements and the many policy considerations 
that contribute to successful FOIA administration. So, as a 
result, one of the primary ways my office encourages compliance 
is through the offering of a range of government-wide training 
programs and the issuance of policy guidance on FOIA.
    In 2014 alone, my office provided training to thousands of 
individuals on a range of topics, including comprehensive 
guidance on the FOIA's proactive disclosure provisions. That 
guidance included strategies for identifying frequently 
requested records, and it also encourages agencies to post 
records even before receipt of a single request, in accordance 
with the President's and Attorney General's FOIA directives.
    And I'm particularly pleased to highlight for you today the 
substantial progress that we have made on a number of 
initiatives to modernize the FOIA.
    First, in collaboration with the 18F team at GSA, we've 
been working on the creation of a consolidated FOIA portal that 
will be added to the resources that are available on FOIA.gov. 
This service will allow the public to make a request to any 
agency from a single Web site and will also include additional 
tools to improve the customer experience.
    Second, OIP has been working on the potential content of a 
core FOIA regulation. We formed an interagency task force to 
tackle this project. We've met with civil society organizations 
to get their input. And our team is actually now hard at work 
drafting language for this important new initiative. We look 
forward to our engagement with both civil society and our 
agency colleagues as we work forward on that project.
    Now, third, in an effort to improve internal best 
practices, we launched what we're calling a series of best 
practices workshops. And we started there with the very 
important topic of improving timeliness and reducing backlogs. 
These workshops provide a unique opportunity for agencies to 
learn from one another and to apply innovative strategies more 
broadly across the government.
    And then, finally, just this past March, I'm very pleased 
that we completed our commitment to enhance FOIA training by 
making standard e-learning training resources available to all 
Federal employees. Embracing Attorney General Holder's message 
that FOIA is everyone's responsibility, these new training 
resources target the entire spectrum of Federal employees, from 
the newly arrived intern to the senior executive. These 
training resources are available to all agency personnel 
anywhere in the world and at no cost. They address the FOIA's 
many procedural and substantive requirements, but they also 
emphasize the importance of good communication with requesters 
and good customer service--very important topics. Given how 
important all of this is to the successful implementation of 
the FOIA, I'm very proud that OIP can provide these resources 
to all government officials across the world.
    So, in closing, in the face of many challenges this past 
fiscal year, agencies have achieved successes in many areas. 
And while we certainly believe there's more work to be done and 
we're continually looking for ways to improve the process, 
we're proud of what we've done so far, and we look forward to 
working with the committee as we jointly pursue the goal of 
improving access to information.
    Thank you.
    [Prepared statement of Ms. Pustay follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Chairman Chaffetz. Thank you.
    Ms. Neuman, you are now recognized for 5 minutes.

                   STATEMENT OF KAREN NEUMAN

    Ms. Neuman. Good morning, Chairman Chaffetz, Ranking Member 
Cummings, and members of the committee. My name is Karen 
Neuman, and I'm the Chief Privacy Officer and Chief FOIA 
Officer at the Department of Homeland Security. I'm very 
pleased to be here before you today to discuss how DHS 
implements the Freedom of Information Act.
    DHS is composed of several distinct components, each with 
unique authorities and categories of records. Our components 
operate their own FOIA offices, staffed by FOIA professionals 
who respond directly to requesters seeking records.
    My office has dual responsibilities to protect privacy and 
promote transparency. Every FOIA request deserves careful 
consideration to promote transparency while protecting the 
privacy of individuals and operationally sensitive information.
    We have some significant challenges, and we also have done 
some good things. As you know, DHS gets the largest number of 
FOIA requests of any Federal agency and produces the largest 
number of responses. In fact, DHS received 40 percent of all 
FOIA requests submitted to the government in fiscal year 2014. 
In this 12-month period alone, we received an unprecedented 
291,242 requests. As a result, we also have the largest 
backlog.
    Since January 2009, DHS experienced a 182-percent increase 
in its number of FOIA requests. At the same time, our FOIA 
professionals have significantly increased their output to meet 
this increased demand. In fiscal year 2014, these professionals 
processed 238,031 requests.
    The Department of Homeland Security takes our obligation to 
promote transparency and further the values of open government 
embodied in the statute very seriously. Nonetheless, we face 
serious challenges to connecting requesters with the records 
they seek. I'd like to briefly highlight some of the measures 
we have implemented to reduce these challenges, including to 
reduce our backlog.
    The Government Accountability Office was asked by Congress 
to review DHS' processing of FOIA requests. In November 2014, 
GAO published its report with four recommendations. We 
concurred with all four recommendations and are taking steps to 
address each one.
    For example, as recommended by GAO, we are in the process 
of finalizing our FOIA regulation, including preparing to 
publish a Federal Register notice seeking comment. As also 
recommended, we sought assistance from DOJ OIP in developing 
and implementing a policy to ensure that all DHS components are 
capturing FOIA costs consistently.
    Quite apart from these recommendations, I've initiated 
several new measures that are designed to improve DHS FOIA 
operations in both the near term and the long term.
    First, in January this year, I requested a top-to-bottom, 
independent review of six DHS component FOIA offices. That 
review is currently underway and is being conducted by the 
Office of Government Information Services, also known as OGIS.
    Second, my office is establishing a short-term blanket 
purchase agreement for FOIA support services. This contract 
will be utilized as needed by our component FOIA offices that 
require additional help. My goal here is really to empower the 
components to take quick action to manage backlog surges before 
they get out of control.
    Third, my FOIA leadership team has met with colleagues at 
other agencies to learn about the types of records that can be 
made available through technology and other routine procedures 
that are currently sought through a FOIA request.
    Fourth, my office continues to look for greater 
efficiencies from the use of technology. We offer each 
component FOIA office the ability to use a centralized FOIA 
tracking, processing, and reporting case management system with 
customizable features. We're also working with the DHS Chief 
Information Officer to develop an e-FOIA mobile application 
that will enable the public to submit FOIA requests and check 
the status of these requests from a smartphone or mobile 
device.
    As a result of these measures, we are starting to see a 
slow but steady reduction in our backlog. Yesterday I learned 
that, as of May 2015, the DHS backlog was reduced by 10 
percent, from 103,480 to 92,066, since the beginning of the 
fiscal year.
    Despite the challenges we face, I am pleased that the 
administrative and technological infrastructure we have put in 
place is resulting in a trend in the right direction. We are 
working hard every day to provide access under the statute, and 
there is room for considerable improvement. I look forward to 
working with you to improve FOIA at DHS, and I welcome your 
recommendations and look forward to taking your questions.
    Thank you.
    [Prepared statement of Ms. Neuman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Chaffetz. Thank you.
    Mr. Fontenot.

                  STATEMENT OF BRODI FONTENOT

    Mr. Fontenot. Chairman Chaffetz, Ranking Member Cummings, 
distinguished members of this committee, thank you for the 
opportunity to testify today on Treasury's role in fostering 
transparency through FOIA.
    My name is Brodi Fontenot, and I'm the Assistant Secretary 
for Management at the Department of Treasury and the designated 
department's Chief FOIA Officer. As such, I take compliance 
with FOIA seriously. Although the nine Treasury bureaus 
independently process FOIA requests directed to each bureau, my 
team is responsible for providing agency-wide guidance and 
training as well as monitoring Treasury FOIA performance and 
proposing agency-wide policy and improvements.
    When I joined Treasury 6 months ago, I was pleased to 
discover that the Treasury team had already begun implementing 
new measures to improve FOIA performance and efficiency 
Treasury-wide. For example, at our departmental offices, 
beginning in 2013, my team doubled the number of full-time 
employees dedicated to FOIA.
    We used additional capacity in two critical ways. First, we 
devoted focused attention on closing Treasury's oldest FOIA 
cases. Second, we made significant changes to procedures and 
staffing used to manage FOIA cases to improve efficiency and 
timeliness.
    We have more work to do, but these initial measures are 
already producing results. For example, in fiscal year 2014, 
the Treasury-wide FOIA backlog has decreased by 8 percent. We 
closed 13 of our oldest 20 cases agency-wide. We also processed 
more FOIA cases--FOIA requests in less time. Treasury closed 73 
percent of incoming cases--requests within 20 days. That's a 3-
percent increase over 2013. Five of nine Treasury bureaus 
closed more requests than they received during the fiscal year. 
Four Treasury bureaus ended the year with a zero backlog. And 
we also released more information overall. Treasury released 
records in full or in part in response to 90 percent of cases 
in which responsive records were identified.
    In sum, today, Treasury is releasing more information, 
processing more requests in less time, and making tangible 
progress on reducing its pending FOIA inventory and closing its 
oldest cases compared to just 18 months ago.
    But we also remain committed to making further strides. My 
team and I will continue to lean forward to drive improvements 
and to provide as much information as we can, as quickly as we 
can, both within the spirit and the letter of FOIA.
    I welcome your questions today. Thank you.
    [prepared statement of Mr. Fontenot follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Chairman Chaffetz. Thank you.
    Ms. Howard, you are now recognized for 5 minutes.

                    STATEMENT OF MARY HOWARD

    Ms. Howard. Thank you.
    Chairman Chaffetz, Ranking Member Cummings, and members of 
the committee, thank you for having me here today. I'm Mary 
Howard, and I'm the Director of IRS' privacy, governmental 
liaison, and disclosure operations. I'm here today to testify 
on the IRS' policies and procedures regarding complying with 
requests for information under the Freedom of Information Act.
    Each year, the IRS processes thousands of FOIA requests, 
most of which require labor-intensive searches of both paper 
and electronic records. Despite this volume and complexity, the 
IRS closes more than 80 percent of its FOIA cases in 30 
business days or less. In fact, our average cycle time 
generally hovers right around 21 days.
    The IRS follows a standard procedure for handling each FOIA 
request it receives. This involves analyzing the request to 
determine whether it can be processed under FOIA, determining 
the scope of the request and searching for responsive records, 
reviewing material to decide what should be released or 
withheld, and sending a response to the requester.
    Over the last several years, our FOIA operation has faced a 
number of challenges. For example, the size of an average FOIA 
request and the volume of potentially responsive documents have 
mushroomed as more and more requests require searching email 
and other electronic documents. Broad requests can easily 
result in the IRS needing to collect and redact thousands of 
documents in response to a single requester.
    Another challenge involves personnel. We have managed to 
protect the overall staffing of the FOIA process in IRS, 
experiencing only a slight decline over the last few fiscal 
years despite financial constraints and related hiring freezes, 
but a high turnover rate has created some difficulties. 
Replacing our FOIA specialists involves not only hiring new 
workers but also training them to bring them up to the expert 
level required to handle complex FOIA requests. The cuts to our 
budget have had a negative impact on the timing of replacement 
hiring and the delivery of the training.
    The net result has been a gradual loss of expertise in the 
FOIA area at IRS over the past several years. The problem is 
expected to get worse. We estimate that more than 60 percent of 
our FOIA professionals will be eligible to retire over the next 
5 years.
    Another critical aspect of the IRS' ability to adequately 
respond to FOIA requests involves the management of official 
records. Here, too, the IRS faces significant challenges. This 
is largely because we don't have systems that let us easily 
search and retrieve electronic records and emails unless 
they're part of the taxpayers' case records. We are also unable 
to categorize, label, and centrally store electronic records, 
including email. And I hope you'll ask me some questions so I 
can give you some more insight into that.
    Without this capability, we must conduct an account-by-
account search for documents to comply with a FOIA request. 
This is an extremely tedious and time-consuming process, and 
that's before we get to the actual review for the exemptions. 
Additional funding would allow us to upgrade our infrastructure 
platforms and acquire more effective search capabilities. We 
could then respond to large document requests far more quickly 
than we're able to now.
    So let me turn now to the events of 2013. Beginning that 
summer, the IRS was faced with an unprecedented number of FOIA 
requests related to the processing of applications for the 
501(c)(4) status. In all, there were 154 requests, and that 
might not sound like a lot, but they were very voluminous and 
complex in nature. At the same time, four congressional 
committees, the Treasury inspector general, and the Department 
of Justice were all requesting large amounts of documents from 
IRS on the same issues.
    The IRS created a special team to review and produce 
documents responsive to the six official investigations. This 
team redacted the documents required by 6103 of the Internal 
Revenue Code to ensure that Federal tax information was 
protected appropriately. Because of its experience on 
conducting reviews and producing documents for litigation, the 
IRS Office of Chief Counsel performed the 6103 reviews and the 
document production. That was required for all the requested 
documents except those going to the tax-writing committees.
    While Counsel was conducting this effort, disclosure staff 
was addressing and responding to their regular FOIA casework 
that flows in at a rate of 10- to 12,000 cases per year. The 
IRS determined that responding to the investigations would take 
precedence over responding to the requests for information 
under FOIA. And the IRS has produced to Congress more than 1 
million pages of documents for those investigations.
    Given that all FOIA documents need that 6103 review, we 
waited until we had fulfilled the request of the investigators 
until we went forward. Of the 154 cases I mentioned, FOIA 
cases, 34 remain pending with the disclosure office.
    We regret that the process has taken this long, but, given 
the extraordinary circumstances, we really felt there was no 
other way that we could respond appropriately to Congress and 
the investigators. The IRS remains committed to FOIA as we work 
through these challenges.
    So this concludes my statement, and I look forward to 
responding to your questions.
    [Prepared statement of Ms. Howard follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairman Chaffetz. Thank you.
    We will now recognize the gentleman from Michigan, Mr. 
Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman. And thank you for the 
hearings of the past couple days.
    And as I have contemplated what we have heard from the 
three panels thus far on FOIA in the last 2 days, you know, I 
am just absolutely convinced that FOIA really isn't the 
problem; it is just an evidence, an outcome of the problem. The 
increasing size of government and the control of government is 
the problem.
    I mean, it is an absolute fact that we have amongst the 
highest paid bureaucrats administering these programs and 
others in government anywhere in the world. We have the highest 
technology, at least amongst the highest technology, of 
anyplace in the world to administer our bureaucracy. We have 
the largest number of bureaucrats in the world to administer 
our bureaucracy.
    And with the size of government like this, why would we 
expect anything other than a huge, huge number of FOIA requests 
coming from an increasing number of American citizens who feel 
under attack from their own government? They are regulated, 
they are taxed, they are supervised, they are overseen almost 
more than any other free country in the world.
    So I look at our panel of witnesses, and I say, how in the 
world can you be expected to do your job in a way that 
satisfies not only Congress but the people of the United 
States? They are going to ask more because they don't trust us. 
They are tired of being overrun.
    I will get to my questions.
    Also, with all due respect, if dollars, more dollars, were 
the answer, then the war on poverty, the war on hunger, the war 
on pollution, the war on crime, the war on many other things 
would be ended. By the way, Fast and Furious, Benghazi, IRS-
gate would be taken care of. We would know the answers. 
Attorney General Holder--former Attorney General Holder 
wouldn't have been held in contempt of Congress. Lois Lerner 
wouldn't have been held in contempt.
    FOIA isn't the main problem. Liberty demands transparency 
from a limited government to succeed. And we are not succeeding 
in addressing the concerns of our people. Government has grown, 
and, thus, it is increasingly mistrusted and it will be 
mistrusted from all sides of the aisle, politically speaking.
    And so, Mr. Chairman, I again thank you for these hearings. 
It just makes it clearer and clearer why we are in the battle 
with the budget to reduce government to the size that liberty 
can expand and not government.
    Ms. Neuman, DHS has the largest backlog of any Federal 
agency. How does the duplicative process of requests contribute 
to--processing of requests contribute to backlog? And I refer 
specifically to the relationship between USCIS and ICE.
    Ms. Neuman. Thank you. I appreciate that question.
    Let me just say that, with respect to the backlog, any 
significant delays in processing requests don't meet my 
standards, and I expect to see improvement. That goes for 
duplication, as well. And, as you may be aware, the GAO studied 
that aspect of our FOIA operations and made some 
recommendations that we are implementing in a number of ways.
    USCIS and ICE receive a significant number of our FOIA 
requests, many of which are immigration-related. There may be 
instances where one or more of those components holds files--or 
holds records that are contained in the alien file. We do not--
we do not support unnecessary duplication, and we have----
    Mr. Walberg. Will the two agencies be put back together 
under the arrangement that was in place before 2012, where they 
weren't duplicating?
    Ms. Neuman. Well, that's really not my decision to make. I 
also want to tell you----
    Mr. Walberg. Whose decision is it?
    Ms. Neuman. I--it's up to the Members of Congress who write 
the statute.
    I will also tell you that we've implemented technology 
measures that----
    Mr. Walberg. But I don't understand that that is our 
responsibility. It worked before 2012; at least they worked in 
that nonduplicative arrangement. Why can't it be put back in 
there? Who is responsible? And it's not Congress.
    Ms. Neuman. So my focus is really, as the Chief FOIA 
Officer, on connecting requesters with their records. And I 
have got to spend my time looking at, the way the agency is 
constructed now, what inefficiencies, if any, are preventing us 
from meeting our transparency mission----
    Mr. Walberg. So the answer is you're not going to do 
anything to put the two component parts back together to stop 
duplication.
    Ms. Neuman. I am focussing on connecting requesters with 
their records.
    Mr. Walberg. Mr. Chairman, my time has expired, and I 
didn't get the answer. Or I guess I did.
    Chairman Chaffetz. I thank the gentleman.
    We'll now recognize the gentleman from Massachusetts, Mr. 
Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman and the ranking member, 
for your courtesy this morning and for holding this hearing. I 
want to thank the witnesses for your help in addressing this 
issue.
    Ms. Barr, there has been a lot of discussion up to now 
about Secretary Clinton and her use of personal email for 
official business. It's my understanding from the documents 
that we have here that Secretary Rice, Condoleezza Rice, did 
not use a personal email account for official business. Is that 
right?
    Ms. Barr. Yes, that's what I understand. She has told us 
that she did not conduct a lot of official business over email, 
but when she did she used a State Department account.
    Mr. Lynch. Okay. How about Secretary of State Colin Powell? 
In his autobiography he admits that he used his personal email 
account for official business all the time. I have a great 
quote here. He says, and this is a quote from former Secretary 
of State Colin Powell: ``To complement the official State 
Department computer in my office, I installed a laptop computer 
on a private line. My personal email account on the laptop 
allowed me direct access to anyone online. I started shooting 
emails to my principal assistants, to individual ambassadors, 
and increasingly to my foreign minister colleagues who, like 
me, were trying to bring their ministries into the 186,000-
mile-per-second world, the speed of light.''
    So do we have any emails from Secretary Powell?
    Ms. Barr. No, we do not have any emails from Secretary 
Powell. We did ask him if he had any official records. He noted 
when he came back to us that he started at what was then the 
beginning of the State Department's email age, but he did not 
have any records to return to us.
    Mr. Lynch. There was some critical decisions made. His 
speech before the U.N. About the existence of weapons of mass 
destruction, we don't have any emails regarding that decision 
and how those statements were made?
    Ms. Barr. I have no personal knowledge about that, sir.
    Mr. Lynch. Yeah. Okay. You know, this is troubling because 
it seems like in the case of Secretary Clinton the way people 
handled their emails, at least it's been suggested, that really 
determined her fitness of whether or not she can be President. 
That's basically the statement that's being made today.
    And I'm puzzled because Secretary Rice did not perform in 
that manner, Secretary Colin Powell did not perform in that 
manner, and I'm just wondering if we have a uniform standard 
here. It doesn't seem from the Federal Records Act that it 
requires people to not use personal email.
    Ms. Barr. When we are dealing with the Federal Records Act 
of course we have to work with employees to maintain records. 
But with regard to using nongovernment email services, if 
people do that we ask that they capture those records by 
copying their official account.
    We are working very hard looking forward to make sure that 
people understand what their requirements are. Under the 
Federal Records Act if, for example, they are out and their 
BlackBerry stops working, to make sure that they copy their 
accounts. But overall I would say that what is most important 
to us is that we have that collection now and we are processing 
it for----
    Mr. Lynch. Right. I appreciate that. Let me just say--I 
only have a little bit of time left here--it's my understanding 
that former Secretary Clinton delivered about 55,000 pages in 
emails.
    Ms. Barr. That's correct.
    Mr. Lynch. Yeah. Have any of the other Secretaries of 
State, during your time, and you've been there a while, 
Secretary Rice, Secretary Colin Powell?
    Ms. Barr. No, only from Secretary Clinton.
    Mr. Lynch. All right. That's about my time.
    Mr. Chairman, I yield back. Thank you.
    Chairman Chaffetz. Thank you.
    I'll now recognize myself for 5 minutes.
    Ms. Howard, the White House on April 15, 2009, sent a 
directive out from Gregory Craig, Counsel to the President. It 
says: ``This is a reminder that executive agencies shall 
consult the White House Counsel's Office on all document 
requests that may involve documents with White House 
equities.'' He goes on and says: ``This need to consult with 
the White House arises with respect to all types of document 
requests, including congressional committee requests, GAO 
requests, judicial subpoenas, and FOIA requests.''
    So my question to you, Ms. Howard, when Congress sends you 
a request for information, what percentage of that do you share 
with the White House?
    Ms. Howard. To the extent that I've been involved in 
responses to Congress or responses to FOIA, we have never 
shared information with the White House. I became aware of this 
memo when we were asked for some information actually to 
demonstrate how many times we had this interaction. It was a 
FOIA request. I was curious as to why we were getting a FOIA 
request since we don't have interaction with the White House on 
FOIAs, and I was presented with this memo.
    Chairman Chaffetz. So you've never sent anything to the 
White House?
    Ms. Howard. I can't speak for the entire IRS. I mean, that 
would be a question for Chief Counsel or the Commissioner. I 
can simply speak for the Disclosure Office and the FOIA 
process. We do not interact with the White House.
    Chairman Chaffetz. So if you get a subpoena form the United 
States Congress, you get a subpoena from me, in the Oversight 
Committee, you don't share that with the White House?
    Ms. Howard. The fact that it exists? Yeah, we may share the 
information that we got the subpoena, we may share the fact 
that we're working on a subpoena, but the actual documents that 
were being produced for the subpoena?
    Chairman Chaffetz. Yeah.
    Ms. Howard. We would produce those documents and redact 
them for 6103. Again, that might involve Chief Counsel----
    Chairman Chaffetz. What percentage of those do you share 
with the White House?
    Ms. Howard. What percentage do I share with the White 
House----
    Chairman Chaffetz. Yeah.
    Ms. Howard. --would be zero.
    Chairman Chaffetz. Within the IRS, you do not share those, 
to the best of your knowledge, you don't share----
    Ms. Howard. To the best of my knowledge, the Disclosure 
Office does not consult the White House.
    Chairman Chaffetz. The White House told you you're supposed 
to do it. The White House directed you to do that. You're 
telling us that you didn't comply with the White House request?
    Ms. Howard. Well, you know, I'm kind of towards the end of 
my career, so I'll be real honest with you. I saw this memo. I 
was amazed to see the memo. It's written to agency counsel, 
which is not me. I looked through the procedures that we have 
in our Internal Revenue Manual, which are basically how we run 
our operations with FOIA and I never saw this. I never saw any 
evidence that this is incorporated, and I ignored it.
    Chairman Chaffetz. When you respond to a letter from 
Congress or there's a response to a subpoena from Congress, who 
sees that before we get it?
    Ms. Howard. In most instances, counsel would look at 
something like that, the chief of staff or the Commissioner. 
But again that's really a question for the Commissioner in 
terms of what that process is like.
    Chairman Chaffetz. So Lois Lerner, Lois Lerner, requests 
for documents for Lois Lerner----
    Ms. Howard. Uh-huh.
    Chairman Chaffetz. --who saw those documents? Who did you 
have to get clearance from before we get those documents? 
Because we still don't have them all.
    Ms. Howard. The 6130 redactions, as I said in my testimony, 
were done by Chief Counsel, the Office of Chief Counsel. We may 
have redacted some of those documents for--well, you don't get 
the FOIA----
    Chairman Chaffetz. I'm asking what signatures do you need 
to see on there before you send it back to us?
    Ms. Howard. I'm not certain because I'm not the one doing 
the sending. That would be----
    Chairman Chaffetz. But you're the Director of this, and 
you've heard of Lois Lerner, I would hope, by now.
    Ms. Howard. I know Ms. Lois Lerner, yeah.
    Chairman Chaffetz. Yeah. So who do you have to check off 
with before we get those documents?
    Ms. Howard. Again, sir, with all due respect, that was not 
a process that I was personally involved in, nor was my 
disclosure operation.
    Chairman Chaffetz. If you had to guess that maybe we would 
ask about Lois Lerner.
    Ms. Howard. Which is why the Commissioner thought that 
perhaps he might be the best to answer your question.
    Chairman Chaffetz. But you're the director. It's your job 
and role and responsibility.
    Ms. Howard. No, sir. My job is the FOIA program.
    Chairman Chaffetz. Your title, correct, Director, Privacy, 
Governmental Liaison, and Disclosure.
    Ms. Howard. Right.
    Chairman Chaffetz. That's your title.
    Ms. Howard. That is my title.
    Chairman Chaffetz. And you're telling me you're not 
responsible for the governmental liaison and disclosure part of 
that?
    Ms. Howard. Not in the context that you're asking me.
    Chairman Chaffetz. Why? Because it's Lois Lerner?
    Ms. Howard. No, I think because it was an unprecedented, 
voluminous----
    Chairman Chaffetz. Wait. What was unprecedented about 
asking for information about Lois Lerner? What's unprecedented 
about that?
    Ms. Howard. I think that Lois Lerner was the tip of the 
iceberg. Really? So do we.
    Ms. Howard. I think that that request included far more 
than just one person.
    Chairman Chaffetz. So what makes you think it's the tip of 
the iceberg?
    Ms. Howard. In terms of the way the request was structured.
    Chairman Chaffetz. What was so striking about it? It's 
pretty simply. I mean, in this electronic age, we're asking for 
all of her emails in a certain timeframe. How hard is that? I 
mean, that should take about 10 seconds, right? What's so hard 
about producing those documents? Why has it taken so long? It's 
taken years.
    Ms. Howard. And, again, I cannot talk to the specific 
documents about Lois Lerner, but what I can give you is some 
insight into how we----
    Chairman Chaffetz. Okay. So when the request came, both in 
a letter and then in a subpoena, who does that go to?
    Ms. Howard. The Commissioner.
    Chairman Chaffetz. It doesn't go to you?
    Ms. Howard. No. Not first.
    Chairman Chaffetz. But when we send these documents over, 
this doesn't land on your desk?
    Ms. Howard. It does not land on my desk.
    Chairman Chaffetz. Does it land on any of your staff's 
desks?
    Ms. Howard. No. It landed on the desk of the Commissioner 
and the Chief Counsel.
    Chairman Chaffetz. So they are solely responsible for the 
fulfillment of that request and for the subpoenas, correct? I 
mean, if it doesn't go to you, you're the Director of Privacy, 
Governmental Liaison, and Disclosure, and you're telling me 
that your department, your group doesn't get that because it 
came from Congress, right?
    Ms. Howard. No, no, because we made a business decision 
that because of the scope of that request we would set up a 
special project team, and that special project team----
    Chairman Chaffetz. Who decided that? I want some names 
here. Mr. Koskinen?
    Ms. Howard. I think it was before his time, so I guess the 
Acting Commissioner.
    Chairman Chaffetz. Right.
    Ms. Howard. It was before my time too. So, you know, 
whatever I tell you is just hearsay. But it was my 
understanding that the Commissioner----
    Chairman Chaffetz. We expect a little bit more.
    Ms. Howard. Again, it was not directed towards my division.
    Chairman Chaffetz. So it doesn't come through your office, 
your department, your group, whatever you want to call it.
    Ms. Howard. We might be involved in it, but so are the IT 
people.
    Chairman Chaffetz. Was the Lois Lerner case dealt with 
differently than anything else? You said it was unprecedented. 
I want to know why.
    Ms. Howard. Well, I think because there were a lot of other 
501--504(c)(3)--(c)(4) documents that were requested at the 
same time.
    Chairman Chaffetz. So anything that had to deal with those 
documents, the (c)(4) documents----
    Ms. Howard. Uh-huh.
    Chairman Chaffetz. --went a different direction than 
normally?
    Ms. Howard. It went into sort of a project team where we 
felt that we could handle----
    Chairman Chaffetz. So there is a special project team 
that's set up?
    Ms. Howard. There was at the time. I don't believe it's 
still functioning.
    Chairman Chaffetz. Why was there a special team set up?
    Ms. Howard. Because of the volume of the----
    Chairman Chaffetz. It didn't have anything to do with 
volume. It had to do with the topic, didn't it?
    Ms. Howard. I don't believe so, no. I think it was a 
business reason of how we would best use our resources. In 
actuality, looking back on it from my perspective, it was a 
very positive thing for the Disclosure Office because we could 
do all of our regular FOIA work, except for those particular 
topics.
    Chairman Chaffetz. So, I mean, what you're telling me is, 
anything that came in on this topic, (c)(4), not just Lois 
Lerner, but (c)(4), went in a different route. It went to the 
Commissioner and it went to the General Counsel. There's only 
two political appointees in all of the IRS, the Commissioner 
and the General Counsel. Those are the only two out of 90,000. 
And you're telling me that those requests went a different 
route than normally anything else does, and it went to them, 
correct? That's exactly what you told me.
    Ms. Howard. I don't want to go on record as saying that I 
know specifically where requests went to. My understanding is 
that requests from Congress are given a certain level of 
respect and concern so that they go to the Commissioner's 
office first and are parceled out as to who's going to work 
them after that.
    Chairman Chaffetz. Do you know who the lead of that special 
project team was?
    Ms. Howard. I do not.
    Chairman Chaffetz. My time has expired. We'll now recognize 
Mr. Cummings?
    Mr. Cummings. Yeah. Thank you.
    Chairman Chaffetz. Mr. Cummings for 5 minutes.
    Mr. Cummings. Thank you very much.
    Ms. Neuman, you have said that there was room for 
improvement. Can you tell us what those improvements might be 
that you were talking about?
    Ms. Neuman. Yes.
    Mr. Cummings. I want to get to the bottom line and be 
effective and efficient. So tell me.
    Ms. Neuman. As do I, Congressman Cummings.
    One of the things I did when I first came aboard was to try 
to understand where some of the bottlenecks were in the 
Department in terms of the component backlogs and understand 
what the reasons for those backlogs might be. In doing so, I 
did identify some of the systemic challenges and decided that 
we really did need to address in the long term an independent 
comprehensive review of what these systemic challenges are, 
what the reasons for these backlogs are, and then get some best 
practices in place for dealing with those.
    In the interim, I decided that I could implement some more 
immediate measures to address some of these challenges. For 
example----
    Mr. Cummings. I want to know what still needs to be done to 
improve. I don't have a lot of time.
    Ms. Neuman. Sure. I personally believe that we can leverage 
technology and deploy much more advanced technology throughout 
the Department that can be used to address the backlog.
    Mr. Cummings. And what's it going to take to make that 
happen?
    Ms. Neuman. Well, we're in the process of doing that 
already. We are in the process. We've rolled out a successful 
pilot that's intended to reduce the backlog and duplication. 
It's been adopted by 11 components thus far, and other 
components are in line to adopt it as well.
    Mr. Cummings. How many components are there?
    Ms. Neuman. Well, there are 15 components that process FOIA 
requests. Eleven of these components have adopted this 
technology----
    Mr. Cummings. So you need four more, is that right?
    Ms. Neuman. Yes, sir.
    Mr. Cummings. You have four to go. When do you expect that 
to happen?
    Ms. Neuman. I personally don't--I'm not aware of the 
timeframe. I would be happy to confer with my staff and get 
back to you on that.
    Mr. Cummings. Confer. I would appreciate it if you would 
confer----
    Ms. Neuman. Absolutely.
    Mr. Cummings. --and get back to me and let me know as when 
that's going to happen.
    Ms. Neuman. I'd be happy to.
    Mr. Cummings. I would also like for you to--because I don't 
have a lot of time, I'm going to ask that you--you all--give us 
your recommendations.
    You know, as I listen here it seems like everything--you 
all make everything sound so rosy, and I want to try to get to 
the bottom line of what the problems are. We heard a lot of 
testimony yesterday. In all fairness to you, I think all of you 
all are probably doing a whole lot of good things. But at the 
same time, we have to balance that against what we have heard 
over the last day or so.
    Will you do that for me, Ms. Neuman?
    Ms. Neuman. Yes, I will.
    Mr. Cummings. And other witnesses?
    Ms. Neuman. Yes, I will.
    Mr. Cummings. Ms. Barr, I want to ask you some key 
questions because I want to follow up on what Mr. Lynch was 
talking about. And I want to thank you for being here.
    For the past several months there have been intense 
discussion about former Secretary of State Hillary Clinton and 
her use of personal email for official business. However, new 
documents--new documents--which we received late last night 
raise significant questions about the email usage of former 
Secretaries of State Condoleezza Rice and Colin Powell. The 
State Department sent a letter to these former Secretaries of 
State last fall requesting information about their use of 
personal email for official business.
    On December 5, 2014, Secretary Clinton and her attorneys 
responded by providing more than 30,000 emails totaling 55,000 
pages. The State Department now has those emails and is 
currently reviewing them to make them available to the public 
under FOIA.
    Is that correct, everything I just said?
    Ms. Barr. Yes, sir.
    Mr. Cummings. All right. Neither Secretary Rice nor 
Secretary Powell provided any emails to the Department in 
response to that request. Is that correct?
    Ms. Barr. Yes, sir.
    Mr. Cummings. Not one. We know that Secretary Powell used a 
personal email account for work because he wrote about this in 
his biography, and Mr. Lynch talked about that. But unlike 
Secretary Clinton, Secretary Powell did not preserve any of 
these emails. Is that correct, to your knowledge.
    Ms. Barr. Yes, he told us he did not have access to those 
anymore.
    Mr. Cummings. So that means you didn't have access to them?
    Ms. Barr. No.
    Mr. Cummings. Last night, the committee received new 
documents regarding former Secretary of State Condoleezza Rice. 
In 2007, the watchdog group Citizens for Responsibility and 
Ethics in Washington submitted a FOIA request seeking State 
Department policies governing the use of Secretary Rice's email 
accounts. CREW also requested copies of emails from her 
official account as well as, ``email messages that have been 
sent by the Secretary of State from any private mail account 
and that pertain to official government business.''
    We received the State Department's response to this inquiry 
last night. It states that although the Department officials 
are still looking, ``no responsive material was found.''
    So, Ms. Barr, are you aware of any emails that have been 
identified from Secretary Rice's email account, any?
    Ms. Barr. No, I'm not aware. Well, I want to make sure that 
I understand your question. Are you asking me if I'm aware of 
any emails from her account that should be regarded as 
responsive material to this request?
    Mr. Cummings. That's right.
    Ms. Barr. Okay. No, I'm not aware of any that are 
responsive to this particular request.
    Mr. Cummings. All right. And we already know you don't have 
emails from Secretary Powell. Is that right?
    Ms. Barr. Yes, that is correct.
    Mr. Cummings. So between the two of them, do you have 
emails?
    Ms. Barr. You mean personal?
    Mr. Cummings. No, no, no, no, no, no. In response to your 
request. You sent the request. You all sent the request. Do you 
have any emails with regard to the request?
    Ms. Barr. No.
    Mr. Cummings. So, Ms. Barr, as you stated today, can you 
tell us with certainty whether Secretary Rice even had an 
official State Department email account?
    Ms. Barr. Yes. It is my understanding that she had an 
official State Department request.
    Mr. Cummings. Account.
    Ms. Barr. Account.
    Mr. Cummings. Account. Okay.
    Ms. Barr. Sorry. But I would like to also say that emails 
are not the only way we capture records. We have cables, memos, 
agendas, we have lots of other ways that we capture official 
records. So while in these two instances we did not have emails 
to respond to requests, we have other types of records that we 
maintain that are looked at to see if we have responsive 
materials when people ask us through the FOIA process.
    Mr. Cummings. Well, I appreciate that. Right now, though, 
I'm just talking about emails.
    Ms. Barr. Okay.
    Mr. Cummings. You don't have any emails from Secretary 
Powell?
    Ms. Barr. That are responsive to the request?
    Mr. Cummings. Yes, ma'am. And you have none from Secretary 
Rice?
    Ms. Barr. That is true. That's correct.
    Mr. Cummings. It's amazing. Secretary Powell and Secretary 
Rice served during critical times in this Nation's history, 
during 9/11 attacks, the war in Afghanistan, and the war in 
Iraq, yet as far as we can tell State Department officials 
don't have their emails from this 8-year critical period.
    Ms. Barr, Secretary Powell has been straightforward about 
his failure to preserve his emails, but Secretary Rice has 
never spoken publicly about hers. In response to the State 
Department's letter last fall, her representative responded by 
proclaiming: ``Secretary Rice did not use a personal email 
account for official business.''
    Do you know if Secretary Rice's attorney conducted a 
thorough review of her personal email account like Secretary 
Clinton's did, do you know?
    Ms. Barr. I am not personally familiar with what her 
attorney did to respond to that request, sir.
    Mr. Cummings. Well, my time has run out. But these new 
revelations are startling, so I hope that we will look at that 
era just like we've been looking at the present era with regard 
to these emails. All right.
    Chairman Chaffetz. I thank the gentleman.
    We'll recognize the gentleman from North Carolina, Mr. 
Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Ms. Pustay, let me come to you. Did you watch the testimony 
yesterday where we had 12 different witnesses across two panels 
talking about FOIA requests?
    Ms. Pustay. I didn't. I didn't watch it, but I was keeping 
up with it throughout the afternoon.
    Mr. Meadows. So you are aware of their less than flattering 
testimony as it relates to your particular involvement with 
FOIA requests, maybe not yours personally but the Justice 
Department. Are you aware of that, that it was less than 
flattering?
    Ms. Pustay. I don't know if I'd agree with that. I 
respectfully don't agree with that characterization. I 
understand, though, let me say this, I understand that 
requesters have examples of things that are frustrating 
experiences.
    Mr. Meadows. So what you're saying is that the testimony 
that we heard yesterday was just a few examples of frustrating, 
because that's not what I got from that, and I would 
characterize it as less than flattering.
    I'm having a hard time reconciling your opening testimony 
with the testimony of a number of witnesses yesterday with 
regards to the Department of Justice and your responsiveness, 
because your opening testimony provided very glowing terms. So 
I guess my question for you is, on scoring different agencies 
on how they respond, who gets the best marks and who gets the 
worst marks on your scoring? Because I understand you score.
    Ms. Pustay. Right. We do an assessment every year.
    Mr. Meadows. Just who gets the best ones--I've got 5 
minutes--so who gets the best scores and who gets the worst 
scores?
    Ms. Pustay. Well, we have, if you look at the assessment, 
you'll see we have a range of milestones, over 20-some 
milestones, so we rank and score agencies on a whole bunch of 
things.
    Mr. Meadows. So how does the Justice Department score on 
those milestones?
    Ms. Pustay. The Justice Department scores quite well on 
those milestones.
    Mr. Meadows. Okay. Would you suggest that if you're setting 
the milestones and you're scoring the milestones, that the 
testimony from all these other folks, who if they set 
milestones they wouldn't give you high marks, how do you give 
yourself high marks?
    Ms. Pustay. I actually for the past 2 years, Congressman, 
have been working collaboratively with representatives from 
civil society to set the milestones. It's actually been a joint 
effort.
    Mr. Meadows. Okay. So let me ask you this then. Ms. 
Attkisson gave us an example of requesting a FOIA request and 
it taking 10 years. Her daughter was 8. She was 18 by the time 
the FOIA request. Would you say that that is a great response?
    Ms. Pustay. Right. No, of course not, of course not.
    Mr. Meadows. Okay. Would you say that that response is 
unique, that there are none others like that throughout all the 
FOIA requests?
    Ms. Pustay. No, of course not as well.
    Mr. Meadows. So what part of violating the FOIA law that is 
very clear--I mean, you know the FOIA law, I would assume, and 
it gives particular responses--what part of violating the FOIA 
law does the Department of Justice condone?
    Ms. Pustay. Right. I think that it's important to look at 
areas that need improvement in FOIA.
    Mr. Meadows. Okay. So what part of the law does the Justice 
Department condone?
    Ms. Pustay. We don't--we endorse----
    Mr. Meadows. So you don't condone violating the law?
    Ms. Pustay. Of course not.
    Mr. Meadows. Okay.
    Ms. Pustay. Of course not.
    Mr. Meadows. So I would think that would be your answer.
    Do you violate the law.
    Ms. Pustay. Of course not. We work hard----
    Mr. Meadows. So you've never violated the FOIA law?
    Ms. Pustay. We work hard, we work very hard at my office--
--
    Mr. Meadows. I believe that. So the question is----
    Ms. Pustay. --to promote transparency and promote 
compliance with the law.
    Mr. Meadows. I believe that. So the question, under sworn 
testimony today, is the Justice Department does not violate--
has never violated the FOIA law. Is that your testimony?
    Ms. Pustay. I think what you're asking me is, do we ever 
respond to requests beyond 20 working days?
    Mr. Meadows. Is that the law?
    Ms. Pustay. The law allows for extensions of time in 
unusual circumstances.
    Mr. Meadows. Okay. So with the extensions have you ever 
gone beyond the law?
    Ms. Pustay. So I wouldn't characterize it as going beyond 
the law because the law actually recognizes, in many different 
aspects, the FOIA recognizes the reality, Congressman, of the 
need for agencies to take more time to respond to certain 
requests that are voluminous, for example.
    Mr. Meadows. All right. So let me ask it a different way. 
Is there anything in the law that would ever give you waivers 
to allow 10 years to respond to a FOIA request? Because I can't 
find it. Can you show----
    Ms. Pustay. Sure.
    Mr. Meadows. Direct me to where----
    Ms. Pustay. Sure.
    Mr. Meadows. --it would be 10 years?
    Ms. Pustay. Sure. The way the timing provision is set out 
in the FOIA is it's in section 6. There's a basic response time 
of 20 working days. There's a provision to ask for 10 
additional days.
    Mr. Meadows. Right.
    Ms. Pustay. And then there's a whole series of steps that 
agencies can take if they need beyond the additional 10 days. 
There's a whole series of things that agencies can do.
    Mr. Meadows. So can you direct me to the actual paragraph--
--
    Ms. Pustay. Absolutely.
    Mr. Meadows. --and send that to me where it says it's okay 
for 10 years?
    Ms. Pustay. Absolutely. I'll send you the paragraph that 
says----
    Mr. Meadows. So do you believe it's in there for 10 years?
    Ms. Pustay. What I know is in there is a provision that 
allows for an extension beyond 30 working days.
    Mr. Meadows. I yield back. Thank you.
    Chairman Chaffetz. Thank you.
    And we would be interested if you'd send that to the 
committee and help articulate that for us. That it would be 
most helpful. Thank you.
    Ms. Pustay. Of course.
    Chairman Chaffetz. We'll now recognize the gentleman from 
Virginia, Mr. Connolly, for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    Ms. Barr, I must say I am reeling from the stunning 
revelation that you have no emails from two former Secretaries 
of State who covered the entirety of the Bush administration. 
And I want to make sure I understood your answers to Mr. 
Cummings very clearly. You are the top FOIA official at the 
Department of State. Is that correct?
    Ms. Barr. Yes, sir.
    Mr. Connolly. And if I understand your sworn testimony, 
you're saying that as of right now the State Department has not 
been able to identify any emails from Secretary Powell or 
Secretary Rice. Is that correct?
    Ms. Barr. What I was saying is that the State Department 
did not have any emails that were responsive to the request.
    Mr. Connolly. Do you have other emails?
    Ms. Barr. I know that we have other emails for Secretary 
Rice. I'm not sure what we have in our collection for Secretary 
Powell. My statements were based on what I understood to be a 
summary of how we had requested a number of former Secretaries 
to come back to us with whether they had official records.
    Mr. Connolly. Well, now, Ms. Barr, my time is limited.
    Ms. Barr. Okay.
    Mr. Connolly. I'm going to help you clarify your testimony.
    Ms. Barr. Okay.
    Mr. Connolly. So are you saying you actually do have emails 
from Secretary Powell, they just----
    Ms. Barr. I'm not sure if I have actual emails from 
Secretary Powell in general. Is that what you're asking me?
    Mr. Connolly. I'm asking is there any evidence at all of 
any emails from Secretary Powell on his official or personal 
email accounts that you have access to as the head FOIA 
official for the Department of State?
    Ms. Barr. I know that he did not provide any copies of 
emails of official records after----
    Mr. Connolly. Really, for 4 long years?
    Ms. Barr. Please let me finish, okay?
    Mr. Connolly. Yes. But please do so in a concise fashion. I 
only have 5 minutes.
    Ms. Barr. Yes, sir.
    Mr. Connolly. Go ahead.
    Ms. Barr. We don't have any emails that were responsive to 
our request.
    Mr. Connolly. No, you keep on using that phrase. Do you 
have any emails from Colin Powell that you have access to?
    Ms. Barr. Because my personal knowledge of what we might 
have, in general, I'm not sure.
    Mr. Connolly. You're not sure.
    Ms. Barr. But I thought that the question that was asked of 
me before was much more specific.
    Mr. Connolly. Do you have access to any--since you're not 
sure about Colin Powell, which I still find stunning--there's 
no evidence of any, but you're not sure. What about Secretary 
Condoleezza Rice, do you have----
    Ms. Barr. I know that she used a state.gov account.
    Mr. Connolly. So you have access----
    Ms. Barr. And I'm sure we have access to them. But I 
thought that the question was in the context of responsive 
material or----
    Mr. Connolly. What do you mean by responsive material?
    Ms. Barr. Because we had a request.
    Mr. Connolly. Yeah.
    Ms. Barr. That's what I thought.
    Mr. Connolly. And your testimony was there is no evidence 
of extant emails from her responsive to the request.
    Ms. Barr. Yes.
    Mr. Connolly. None.
    Ms. Barr. We didn't provide any.
    Mr. Connolly. So what happened to them?
    Ms. Barr. Well, if it's not responsive we don't supply it. 
But that doesn't mean that there are no emails, period, from 
her.
    Mr. Connolly. But there are some emails from her. You're 
not sure about Colin Powell, but you are sure about Secretary 
Rice?
    Ms. Barr. I know that Secretary Rice used a state.gov 
account.
    Mr. Connolly. Which means they're preserved somewhere.
    Ms. Barr. Somewhere.
    Mr. Connolly. Have you ever seen one?
    Ms. Barr. No, not personally.
    Mr. Connolly. I find that amazing as well. Does the Federal 
Records Act apply to both Secretaries Powell and Secretary 
Rice?
    Ms. Barr. Yes. It applies to all. But again Federal records 
can be more than email.
    Mr. Connolly. I understand that, but let's stick with 
emails for a minute.
    Ms. Barr. Okay.
    Mr. Connolly. So is it compliant with the Federal Records 
Act to in fact wipe out emails----
    Ms. Barr. No.
    Mr. Connolly. --whether they are on your personal account 
or your official account?
    Ms. Barr. It is not. We ask each employee to preserve 
official records, and that's a responsibility for every 
employee.
    Mr. Connolly. Right.
    Ms. Barr. And we have to depend on individual employees to 
carry out their responsibilities.
    Mr. Connolly. So just to summarize, and please correct me 
if I get it wrong, your testimony is you're unaware of any 
surviving emails from Secretary Powell responsive----
    Ms. Barr. You said personally.
    Mr. Connolly. I understand. But you have a title. 
Presumably you'd know, if anyone knew. But we'll use your 
phrase, responsive to the request.
    Ms. Barr. Yes.
    Mr. Connolly. In that lane, there are no surviving emails 
from Secretary Colin Powell that you're aware of?
    Ms. Barr. That are responsive to the request.
    Mr. Connolly. And with respect to Secretary Rice, 
similarly, you're unaware of any surviving emails from 
Secretary Rice responsive to the request?
    Ms. Barr. That is correct.
    Mr. Connolly. There may be or, in fact, your guess is there 
are surviving emails from her, but they are outside that lane 
of responsive to the request?
    Ms. Barr. Yes, sir.
    Mr. Connolly. Thank you.
    Chairman Chaffetz. I thank the gentleman.
    We now recognize the gentleman from Georgia, Mr. Hice, for 
5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    Yesterday, as you well know, each of you, this committee 
heard testimony from several esteemed members of the press and 
outside groups who've experienced tremendous problems with FOIA 
requests. And, quite frankly, I was shocked and astonished by 
the testimony we heard yesterday.
    Several comments stick to my mind, one in particular by Tom 
Fitton, the president of Judicial Watch, who used the phrase 
``criminal obstruction'' to describe the manner in which the 
IRS has handled FOIA requests having to do with the IRS' 
targeting of conservative groups. He also said that an agency 
official actually told him that if you scrutinize the 
government, the government will scrutinize you.
    Moments ago, Ranking Member Cummings said that all of you 
are making things sound rosy. We're not talking about a rosy 
situation here. We have a mess with potential criminal 
obstruction taking place.
    Ms. Howard, is that what Tom Fitton described common 
practice with the IRS?
    Ms. Howard. It's not my experience that it's any practice 
within the IRS. I see no evidence of criminal wrongdoing or of 
any intent to do anything but make records available.
    Mr. Hice. So you see no targeting take place. You would 
deny what has come out pretty nationally.
    Ms. Howard. Outside of my area of expertise. I can only 
speak to the records production.
    Mr. Hice. If someone makes a FOIA request to the IRS is 
that person potentially now a target for retaliation?
    Ms. Howard. No, sir.
    Mr. Hice. Okay. So you would deny that there has been any 
type of retaliation, audits, that type of thing from the IRS 
because of people are so-called scrutinizing?
    Ms. Howard. I'm simply saying that in my experience the way 
in which FOIA requests come in, they are logged into a system. 
The folks who work the FOIA requests have access to that 
system. The rest of the IRS has no need to have access to that 
system. So I'm not sure that it's common knowledge----
    Mr. Hice. That's not my question. My question is, has the 
IRS participated in retaliation through audits or whatever 
because people are requesting FOIA information or what may be 
perceived as scrutinizing the IRS?
    Ms. Howard. I have no direct knowledge of the audit side of 
the house. That's not my area of expertise or familiarity.
    Mr. Hice. But you do have knowledge of the FOIA side of 
things?
    Ms. Howard. I have knowledge of the FOIA side of things.
    Mr. Hice. And you're denying there would be any such 
retaliation.
    Ms. Howard. I have not shared any information with anyone 
who would be in a position to retaliate.
    Mr. Hice. Okay. Well, let me go further to a comment you 
said, made a little bit earlier in discussion with the chairman 
regarding Lois Lerner.
    Are you saying--and I just want to clarify your testimony 
here today--are you saying that there was no special treatment 
that was given to her for protection, in spite of the fact that 
you yourself said that her case was the tip of the iceberg?
    Ms. Howard. What I meant was that the request for her 
emails was just part of the request that this committee and 
other investigators made for information on the (c)(4) issue.
    One of things I do want to clarify----
    Mr. Hice. Please be quick.
    Ms. Howard. Okay. Is that the title Governmental Liaison in 
my title really is not the liaison with Congress. It's liaison 
with State and other Federal agencies and the data exchanges 
that we do with them. That's where my area of responsibility 
is, in addition to FOIA. So a lot of the requests that would 
come from Congress would not automatically land on my desk.
    Mr. Hice. We're not talking about requests from Congress.
    Ms. Howard. You're talking about FOIA requests.
    Mr. Hice. We're talking about FOIA requests and other 
requests. We're trying to get to the bottom of what appears to 
be outright obstruction, and we're getting a rosy picture that, 
quite frankly, is not an accurate picture.
    I want to shift over, Ms. Neuman, to you. In your testimony 
you mentioned that your agency avoids FOIA requests that might 
be operationally sensitive material. Is that a correct----
    Ms. Neuman. No, it's not. We don't avoid any FOIA requests, 
but we do consider FOIA requests that may be seeking 
information that is operationally sensitive and may be 
protected.
    Mr. Hice. Is operationally sensitive, does that include 
anything that your agency would not want the public to know or 
see?
    Ms. Neuman. No, no. It would include information about law 
enforcement, investigatory techniques, for example, national 
security issues. And when we get a request----
    Mr. Hice. So there would be no other case where information 
is denied. Listen, we had testimony one after another after 
another. And I don't know where you guys get some of your 
information, quite frankly. We had people all over the board 
saying the average wait is years to get FOIA responses.
    I wish I had more time. My time is running out. But the 
FOIA request is absolutely essential to government transparency 
and the constitutional rule of law, and the evidence is 
abundant that it is at least being avoided, if not totally 
obstructed, and this is an issue we have got to get to the 
bottom of, get to the root of, and you folks here are part of 
the problem.
    Mr. Chairman, I yield back.
    Chairman Chaffetz. Thank you.
    I now recognize the gentlewoman from Illinois, Ms. 
Duckworth, for 5 minutes.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Ms. Barr, in September of 2012 the OIG for the State 
Department issued a report on the Department's FOIA program. 
I'm looking at it now. It's ``Inspection of the Bureau of 
Administration, Global Information Services, Office of 
Information Programs and Services.'' And the report states: 
``The Department's FOIA process is inefficient and 
ineffective.''
    Are you familiar with this report?
    Ms. Barr. Yes, I am.
    Ms. Duckworth. I know you had only been on the job just a 
few months when it was issued. But I wanted to ask you a little 
bit more about it. The report focused on the Office of 
Information Programs and Services. That office is within the 
Bureau of Administration, I understand, and you serve as the 
Assistant Secretary for that Bureau. Is that correct?
    Ms. Barr. Yes, that is correct.
    Ms. Duckworth. I'd like to go through some of the issues 
raised in the report. It said about the Office of Information 
Programs and Services, and I just want to quote the report, it 
says: ``Persistent neglect of fundamental leadership 
responsibilities and management practices has had profound 
consequences in IPS. The OIG team's observations, discussions 
with IPS staff, and the responses to OIG's questionnaires 
indicated an office with problematic morale, perceptions of 
favoritism, micromanagement practices, and confused lines of 
authority.''
    This really concerns me. And I understand that you'd only 
been on the job just 6 months, so this investigation probably 
took place before you got there. But how did you respond to 
those findings?
    Ms. Barr. Well, I took those, that OIG report, very, very 
seriously. It was within the first 6 months of my tenure, and I 
immediately became involved in doing everything I could to 
address the issues.
    In addition to just devoting my personal time to doing 
whatever I could to make sure that employees received proper 
leadership training, that there were more clear lines of 
authority, we actually moved some people around. One part of 
the problem was that there were supervisors who were not 
physically located close to the employees that they were 
supervising.
    In addition to that, at that time I did have some positions 
that I was able to reallocate to that section. We also had a 
number of vacancies. And, in fact, at the beginning of that 
period when the report was being released we were able to hire 
a new director who made a huge difference in that section.
    It is something that I am always involved with, with any of 
my units, but this report was like the first very negative 
report I'd received on one of my units when I started, so I 
took it very seriously.
    Ms. Duckworth. Would you say that this is an ongoing 
process for you? Are you still dealing with the issues in the 
report?
    Ms. Barr. Yes. We've closed most of the recommendations, 
but some of the recommendations that involved other bureaus, we 
are still working on it. We have to do a quarterly report to 
the IG, so it's something that I talk to the senior management 
in that section about all the time.
    Ms. Duckworth. Okay. The report also found flaws in the 
Department's records management, and it stated that the 
Department's records management infrastructure is inefficient 
and ineffective. It also said that failure to develop and 
implement electronic systems has resulted in poor performance.
    Is the State Department overall taking steps to improve its 
records management processes?
    Ms. Barr. Yes, we are. First of all, we are participating 
in a government-wide working group that is dealing with records 
management. And I have been in a couple of those meetings 
myself, and I can assure you that there are very passionate and 
involved people working very hard on this.
    In addition to that, as I mentioned earlier in my oral 
testimony, the Secretary himself is very much committed to 
preservation and transparency and has asked the OIG to look 
into a number of issues, and what we are doing on records 
management is one of those issues.
    Ms. Duckworth. Thank you. Well, I hope that the State 
Department will continue to make these priorities a top goal 
for the agency. FOIA is certainly a critical tool for Americans 
to demand the accountability that they deserve from their 
government, and I'm sure you know that this--I'm sure this 
committee and myself personally will be following up to make 
sure that that process continues. Thank you.
    I yield back, Mr. Chairman.
    Chairman Chaffetz. I thank the gentlelady.
    And we'll now recognize the gentleman from Georgia, Mr. 
Carter, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Chairman, members of the panel, in preparation for this 
hearing I actually used my search engine on my computer to look 
up FOIA requests, and I was quite surprised and somewhat 
disappointed, I have to be honest with you, that one of the 
results is what I hold in my hand. And this is a handout from 
the Web site of the minority leader, the minority party leader 
in the Senate, Senator Harry Reid. It is a document that 
encourages deferred action applicants to file FOIA requests, to 
file FOIA requests for criminal records and immigration files 
so that the lawful permanent residents who are here now can 
actually find out and be prepared when their parents or their 
children file for deferred status.
    I was really shocked. It is quite impressive. It offers 
tips as to what they should do to file the FOIA request, but it 
clearly states in this handout, it clearly states that ICE, 
that the United States Citizenship and Immigration Services is 
not currently accepting any applications because of the court 
order that we are all familiar with. Yet it still encourages 
them in this document to go ahead and file. It still encourages 
them to do that.
    Ms. Neuman, I want to ask you, in the last fiscal year the 
FOIA backlog at DHS has more than doubled. Why is this? Do you 
know why it's more than doubled?
    Ms. Neuman. Congressman, the FOIA backlog has more than 
doubled in part because we've received an enormous increase in 
the number of requests for fiscal year 2014. ICE and USCIS are 
the recipients of most of these requests as many of these 
requests seek immigration-related records.
    Mr. Carter. So you do think that it's a result of people 
encouraging these applicants to file FOIA requests.
    Ms. Neuman. No, sir, I don't. I can't speak to the many 
events that take place outside of DHS that trigger searches in 
requests. We do focus on trying to fulfill those requests.
    Mr. Carter. But you do admit that those requests have been 
related to immigration requests.
    Ms. Neuman. I am saying, if I understand your question 
correctly, that a significant number of the requests received 
by the Department are requests for immigration records.
    Mr. Carter. Okay. Fair enough. Okay.
    In your opening statement you said that the number of 
requests through DHS has increased over 182 percent since----
    Ms. Neuman. Since 2009.
    Mr. Carter.  Since President Obama took office, that's 
correct. Is that correct?
    Ms. Neuman. Since he issued his open government directive.
    Mr. Carter. Since he issued his open government directive.
    Ms. Neuman. 2009, yes, sir.
    Mr. Carter. So you think it is a result of the deferred 
action program.
    Ms. Neuman. Again, I can't speak to the many events and 
activities outside of the Department that may trigger a surge 
in FOIA requests. I can't speak to whether or not anyone is 
encouraging requests and whether those words of encouragement 
might increase the filing.
    Mr. Carter. Ms. Neuman, are you familiar with the G-639 
form?
    Ms. Neuman. I can't say that I am off the top of my head.
    Mr. Carter. Okay. When did you take over in this 
department?
    Ms. Neuman. At the end of fiscal year 2013.
    Mr. Carter. Okay. The G-639 form I believe was just 
introduced in your Department this year, so I would think that 
you would be familiar with it.
    Ms. Neuman. And if you might remind me what that is.
    Mr. Carter. Okay. Well, it has to do with the applicants 
that--it was created for the FOIA requests from those who were 
seeking information on DACA and DAPA to help expedite that. Do 
you know whether that form has been used, the increase in the 
usage of that form?
    Ms. Neuman. I personally don't have awareness of the 
specific form that you're talking about. I would be happy to 
consult with my staff and get back to you.
    Mr. Carter. Well, I hope you will. I would think that you 
would have complete awareness of that, being the director, if 
there was a new form implemented in order to expedite some of 
the FOIA requests that are coming through.
    Ms. Neuman. I'm not aware of specifics with respect to the 
processing of specific cases or specific types of cases.
    Mr. Carter. Okay. Well, can you get back with us on that--
--
    Ms. Neuman. Absolutely.
    Mr. Carter. --and please provide for this, not only that, 
but what it's used for specifically?
    Ms. Neuman. Absolutely.
    Mr. Carter. Because that's what I understand it's used for. 
And if that form has been used and how much it's increased.
    Ms. Neuman. I'd happy to do that.
    Mr. Carter. Thank you. I appreciate that.
    I want to mention to you as well, Ms. Neuman. I have a 
bill, H.R. 1615, that I am introducing to address the backlog 
of FOIA requests at DHS. As you know, the majority of FOIA 
request backlogs exist at DHS, majority throughout the 
government, so this is something. I hope that you will look at 
it. I hope it will be something that can assist you and help 
you and help us to eliminate this backlog as best we can.
    Ms. Neuman. Thank you.
    Mr. Carter. Thank you, Mr. Chairman, and I'll yield back.
    Chairman Chaffetz. Thank you.
    I will now recognize the gentlewoman from the Virgin 
Islands, Ms. Plaskett, for 5 minutes.
    Ms. Plaskett. Thank you very much, Mr. Chairman.
    Good morning, witnesses, good morning to you all, and thank 
you for the information that you're providing to us.
    One of the things that I really wanted us to focus on is my 
colleagues here discussed that there is a problem, and everyone 
is aware that there is a problem. I don't think that you 
sitting here are the problems. I think that there are processes 
and directives and issues that have happened within your 
agencies that create these backlogs that we're talking about, 
and I'd really like to try and get to the root of what is the 
reason for this.
    We've talked about in some instances, Ms. Pustay, as the 
Director of the Office of Information Policy, that agencies are 
receiving more and more FOIA requests, correct? And you 
highlighted in your testimony that the Federal Government 
received 714,231 new FOIA requests in fiscal year 2014. Is that 
correct?
    Ms. Pustay. That's correct.
    Ms. Plaskett. In the beginning of fiscal year 2009, I 
understand that there were 557,000.
    Ms. Pustay. Right.
    Ms. Plaskett. That's an increase of 28 percent.
    Ms. Pustay. Exactly.
    Ms. Plaskett. So that's one variable that becomes a problem 
for us, which is the increase in the number of FOIA requests.
    Ambassador Barr, you spoke as well, and I understand that 
the Department of State has an increase in over 300 percent of 
FOIA requests. Is that correct?
    Ms. Barr. Yes, since 2008.
    Ms. Plaskett. So that's one side of the equation. I think 
what we haven't really talked about is the other side, which is 
the amount of resources that you have. And I would have hoped 
that you all would have brought that to light in some of your 
testimonies. So I wanted to dig into that a little bit as well.
    So in 2009 the Open Government Directive instructed 
agencies with sizeable FOIA backlogs to try and reduce those by 
10 percent. Was that a directive that was given to each one of 
you?
    Ms. Pustay. Yes.
    Ms. Plaskett. Yes?
    Ms. Pustay. Correct. That's issued to everyone.
    Ms. Plaskett. Was everyone issued that?
    And, Ms. Pustay, you mentioned the government shutdown in 
your testimony, and you said: ``We roughly estimate that this 
3-week period could have resulted in 32,000 more FOIA requests 
being processed.'' Right?
    Ms. Pustay. That's correct.
    Ms. Plaskett. What are the resources? Have you increased 
the resources that you have to address these backlogs?
    Ms. Pustay. Well, I can tell you that the challenges that 
we've identified, that agencies are facing with backlogs are, 
number one, as you already have mentioned, the steady increase 
in incoming requests. Secondly, staffing has been at its lowest 
level. This past fiscal year it was lower than it's been for 6 
years. So resources, hiring freezes, government shutdowns where 
requests can come in but there is no one at the government that 
can process them, they all impact backlog.
    Ms. Plaskett. So, Ms. Pustay, with that, you're talking 
about the decreases.
    Ms. Pustay. Right.
    Ms. Plaskett. Your Office of Information Policy during 
fiscal year 2014, there were 3,838 full-time FOIA staff devoted 
to the administration of FOIA throughout the government. We 
understand that that is a 9 percent decrease in the amount of 
full-time FOIA staff from the year before. Does that figure 
sound correct?
    Ms. Pustay. Well, it's certainly not the size of OIP. We're 
about 43 people at OIP. I think you're talking about----
    Ms. Plaskett. Throughout government to handle FOIA 
requests.
    Ms. Pustay. Yes. So definitely the staffing levels across 
the government have decreased.
    Ms. Plaskett. And how does that impact the processing of 
these FOIA requests?
    Ms. Pustay. We are trying very hard to find ways to gain 
efficiencies in processing, utilizing technology, and that's a 
big factor that we've been--a big area where we've been putting 
a lot of emphasis. And there are efficiencies to be gained with 
technology. But at the end of the day you do need trained FOIA 
professionals who can analyze documents for disclosability, and 
so there's just no substitute for personnel to actually handle 
requests.
    Ms. Plaskett. So it's your belief that having additional 
staff to process these backlogs as well as the additional FOIA 
requests that come in would be the best way in which to handle 
these backlogs.
    Ms. Pustay. I think having resources for both staff and 
technology together would be a very effective way.
    Ms. Plaskett. Ms. Neuman, would you agree that that would 
help your agency?
    Ms. Neuman. In my case, I don't want to get too far ahead 
of the independent review that I mentioned, we also are 
deploying technology because doing so does create efficiencies. 
But I can't dispute at this point the value of staff resources 
along with the enhanced use of technology.
    Ms. Plaskett. And Secretary Barr, Ambassador Barr, would 
you say that would assist you as well?
    Ms. Barr. Yes, I do believe it would assist me. But I think 
that within many agencies we are all trying to meet our 
priorities and----
    Ms. Plaskett. So are the FOIA requests a priority?
    Ms. Barr. Yes, it is a priority.
    Ms. Plaskett. So what would be the best way to address that 
priority?
    Ms. Barr. I think we have to continue to work with 
technology to see if we can gain additional efficiencies. But I 
also see that the increasing requests are also part of the 
American public's increasing interest in what we do, and I 
don't expect that to abate any time soon.
    Ms. Plaskett. So then how do you address it? With the 
technology alone or with staff as well?
    Ms. Barr. Some staff as well. But I know we are all 
competing for resources----
    Ms. Plaskett. Well, that's what you come to Congress for, 
is to ask us for those resources. So you have an opportunity 
here to do that, and I would think that you would avail 
yourself of that opportunity.
    Ms. Barr. Yes, ma'am.
    Ms. Plaskett. I yield back my time.
    Chairman Chaffetz. Before you yield back, if you will yield 
me a moment.
    Ms. Plaskett. Of course, Mr. Chairman, always. Well, not 
always, but in this instance, yes.
    Chairman Chaffetz. Let's get to the question first, and 
then we'll see, yeah.
    Ms. Pustay, you said across government that resources are 
done, if I heard you correct.
    Mr. Fontenot, can you please clarify, from your 
perspective, what's happening? You wrote in your testimony 
something different than that.
    Mr. Fontenot. Yes. Treasury-wide, over the past several 
years, we've increased our resources related to FOIA. 
Specifically, at the end of 2014 we had 151 full-time 
equivalent employees working in FOIA, and that's a 21 percent 
increase over the prior 2 years.
    Chairman Chaffetz. So to say that personnel resources 
across the board government-wide, Ms. Pustay, are down is not 
accurate. In fact, Mr. Fontenot wrote in his testimony: 
``Beginning in 2013, my team doubled the number of full-time 
employees dedicated to FOIA.'' That's not a decrease. It's an 
increase quite dramatic, actually.
    We appreciate the dedication and commitment that you've 
made, Mr. Fontenot.
    Ms. Pustay. Mr. Chairman, if I could just correct the 
characterization. When I'm giving the figure about staffing 
being decreased, I'm giving an overall number. The number of 
requests overall has increased, overall staff has decreased.
    Chairman Chaffetz. I understand the requests, but you were 
talking about personnel to deal with those. And some agencies 
have evidently prioritized it more than others because they 
doubled the number of personnel at the Department of Treasury.
    Ms. Pustay. I am giving the figure for overall. Each agency 
reports in their annual FOIA report their number of FOIA 
staffing, so it's very easy to look, right on foia.gov, to see 
which agencies increased, which decreased, the exact numbers 
for all of them. It's all publicly available.
    Chairman Chaffetz. You said they all decreased, and Mr. 
Fontenot said he doubled it.
    Ms. Pustay. My statement is, and I'm sorry that it's 
misunderstood, was that overall staffing has decreased. 
Government figure overall. That's what I'm talking about.
    Mr. Cummings. Would the gentleman yield?
    Chairman Chaffetz. Sure.
    Mr. Cummings. Just real quick. I understand what you were 
saying about overall because I said it in my opening statement.
    Ms. Pustay. Thank you.
    Mr. Cummings. And I just wanted to make sure we are clear. 
Although there are agencies that may have increased, overall 
government with regard to FOIA personnel has decreased.
    Ms. Pustay. Absolutely. Thank you.
    Chairman Chaffetz. And further yielding, part of my point 
is some think it's in their best interest to just slow this 
think down, just ride it out, and others have given it more 
priority. But anyway, we'll continue the discussion.
    We'll now recognize the gentleman from Pennsylvania, Mr. 
Cartwright, for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Mr. Chairman, in the wake of the Edward Snowden 
revelations, obviously there has been a debate and public 
outcry over what some are seeing as the government's overly 
aggressive reaches into people's personal lives. I don't think 
most people would question that the need for the government to 
retain secrecy in certain areas to protect our national 
security is important. In my mind, though, there is still an 
important role for FOIA requests to shine a light on government 
actions that might not be in line with the core values that 
make our country great.
    Ms. Neuman, I want to ask you, with decreased funding and a 
shrinking number of FOIA staff, what has the effect been on the 
public's ability to maintain that visibility and that 
transparency and to hold judicial, legislative, and executive 
branches accountable?
    Ms. Neuman. Well, certainly with the backlog, that has 
impacted the speed with which we can respond to requests and 
fulfill those requests. I will say that DHS processed 238,031 
requests, up from 204,332 in fiscal year 2013, so that's a 16 
percent increase in the number of processed FOIA requests from 
the previous fiscal year.
    Is it where I would like to see it? No, of course not. I 
would like to see greater improvements precisely to fulfill the 
values of transparency and shining a light on executive branch 
operations, as you know, that's embodied in the statute.
    Mr. Cartwright. Great.
    Ms. Neuman. And our professionals are working very hard to 
fulfill those requests and shine that light.
    Mr. Cartwright. It wouldn't hurt to have more professionals 
doing this man and woman power work, right?
    Ms. Neuman. Well, let answer that this way. These are lean 
times for all Federal agencies, as you know.
    Mr. Cartwright. Well, you're being very diplomatic, Ms. 
Neuman, and appreciate it, but I have to move on.
    In his testimony, David McCraw says that there are three 
primary areas of FOIA delays that need to be addressed. First, 
the culture of unresponsiveness; second, agencies deferring 
responses to other agencies; and third, that there are times 
when the information being requested has been submitted by 
companies to regulators, and so the agency has had to resolve 
private industry privacy concerns.
    Congress has been working on legislation to expedite the 
sharing of cyber threat information, not just between private 
companies but also within the government. Now, here on this 
committee we have passed out of this committee with approval 
H.R. 653. This committee reported it out with approval this 
year.
    Ms. Pustay, would you comment on 653? Are you familiar with 
that legislation?
    Ms. Pustay. I'm not prepared to comment on any specific 
legislation, Congressman.
    Mr. Cartwright. Okay.
    Ms. Pustay. I certainly can speak to some of the concepts 
that you just mentioned.
    Mr. Cartwright. Well, let's do that. Do you have 
recommendations on how these efforts might be applied to 
increasing government transparency?
    Ms. Pustay. Well, I think one of the key things that we've 
been doing, just to take an example, after meeting with civil 
society representatives during my tenure as Director of OIP, I 
have been very impacted by the fact that the basic concept of 
better communication can really go a long way to making the 
FOIA process seem more understandable and flow more smoothly 
and prevent disputes from happening.
    So in that sense it has been a focus of mine. I have done 
two separate guidance articles on the importance of good 
customer service and making sure that requesters understand 
what's happening with their request, that they have a point of 
contact at an agency.
    Mr. Cartwright. Well, good. I don't mean to cut you off.
    Ms. Pustay. Yes, sir.
    Mr. Cartwright. But would you forward those to my office?
    Ms. Pustay. Absolutely. Absolutely.
    Mr. Cartwright. Thank you for that.
    I want to conclude by following up on something Mr. 
Connolly from Virginia was talking about. He was talking about 
Secretary of State Condoleezza Rice's emails. And, Ms. Barr, 
you were testifying that your understanding is that she used an 
official account to do emails, although you had not ever seen 
one of those emails from her on that account or any other.
    My information is that Secretary Rice has not disclosed 
whether she used a personal email account for official 
business. She has not disclosed whether she used a private 
email account for official business. And, Ms. Barr, can you 
confirm or deny that? Do you know either way on that question? 
It's a yes or no, and I have to hurry. Yes or no, do you know?
    Ms. Barr. Secretary Rice told us that she did not use 
personal email for official business.
    Mr. Cartwright. Well, I'm going to invite my dear friend 
from South Carolina, who I know is looking into the question of 
emails of Secretaries of State to really delve into the 
question of whether Secretary Condoleezza Rice used private 
email accounts for official business.
    And with that, Mr. Chairman, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentleman from South Carolina, Mr. 
Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Good morning to all of our witnesses.
    Ms. Barr, you previously testified that the former 
Secretary's email arrangement with herself was not acceptable. 
Those are the words you used, not acceptable. What made it not 
acceptable to you?
    Ms. Barr. I know that in my oral statement today I was 
talking about it. Our backlogs were not acceptable. But I think 
in my former testimony that was being asked if I thought in 
general it was okay to use--if any employee would use a private 
email account.
    Mr. Gowdy. Right. No, you are exactly right. It was in 
response to a question when you testified before the Senate. 
And I am sure the circumstances were, was it okay to 
exclusively use personal email with which to conduct public 
business, and you used the phrase not acceptable. So I am not 
asking about the backlog. I am asking about the exclusive use 
of personal email with which to conduct public business. What 
makes it not acceptable?
    Ms. Barr. What we want to make sure that we do under the 
Federal Records Act is to capture official records so that they 
are available to be a history of what we do and how we come to 
those decisions. We don't like for records to be separated from 
the agency, so we were very pleased to have these records back 
in our possession so that they are part of our collection and 
that we can make them available to the public.
    Mr. Gowdy. Do you recall why former Secretary Clinton said 
she availed herself of a personal server and used exclusively 
personal email? Do you recall the explanation given? Or have 
you been given an explanation for why she went that route?
    Ms. Barr. I can't speak to that authoritatively. My 
understanding is that the Secretary said that she did it as a 
matter of convenience. I don't know that personally, sir.
    Mr. Gowdy. Well, that is my understanding too, in part 
because that is what she said. I guess my next question would 
be, if it was solely for convenience, why not return the 
records the day you separated from the State Department?
    Ms. Barr. I have no information on that, sir.
    Mr. Gowdy. Has she provided any explanation for why she 
retained care, custody, and control of those public records for 
almost 2 years after she separated?
    Ms. Barr. I am not aware of that, sir. I'm aware that we 
have them now.
    Mr. Gowdy. Do you know what prompted the former Secretary 
to return those public records to the public domain?
    Ms. Barr. We sent a letter to Secretary Clinton, as well as 
to Secretaries Rice, Powell, and Albright, and asked them if 
they had any records that might have been generated on non-
Department systems that should be part of our official records.
    Mr. Gowdy. How were you able to comply with FOIA requests 
in that almost 2-year interim between the time you wrote the 
letter and the time that she retained care, custody, and 
control of all of those public records?
    Ms. Barr. Sir, emails are not the only records that we use.
    Mr. Gowdy. Right. But it's part of the record. So if you 
received a FOIA request that would have included emails, how 
would you have been able to comply with that FOIA request given 
the fact that you had neither care, custody, nor control of 
those records?
    Ms. Barr. Well, we would still search all of our records, 
and we would still look at things like cables, decision memos, 
other types of documents that we keep to provide a record of 
what we do, agendas.
    Mr. Gowdy. So you would have given what you had, but you 
would have made no representation that what you provided was 
complete, because necessarily it could not have been complete 
because you didn't have the full panoply of public records.
    Ms. Barr. Well, we always look at what we have, sir.
    Mr. Gowdy. Right. You can't give it if you don't have it, 
which then raises the next question I have. I was listening to 
my friend from Maryland and my friend from Virginia make note 
of the fact the former Secretary did return emails. What 
guarantee can you give my fellow citizens that what you have 
now is the complete public record? Have you been through all of 
her records to determine what's public and what's private?
    Ms. Barr. We are processing them now. And, no, we have not 
completed our review.
    Mr. Gowdy. You're processing what was originally on the 
server or are you processing what she provided to you?
    Ms. Barr. We are processing what she provided to us.
    Mr. Gowdy. Do you know what mechanism she would have gone 
through to determine herself what was public record and what 
was private or what may have been a mixed use? Do you know who 
made that initial determination for the former Secretary?
    Ms. Barr. She has told us that erred on the side of 
inclusion.
    Mr. Gowdy. So did she tell you that she personally reviewed 
all of the emails or did she retain counsel to do so?
    Ms. Barr. I am not aware of whether she personally did it 
or if she retained counsel.
    Mr. Gowdy. Well, I thank you for answering my questions. I 
am over time. Suffice it to say I have a number of additional 
questions in this area, and perhaps at some point I will able 
to ask them.
    Mr. Cummings. Will the gentleman yield just for a moment?
    Mr. Gowdy. I am out of time. But if the chairman says I'm 
not, then I'm not.
    Mr. Cummings. Just one question. Ms. Barr, what emails are 
you processing for Secretary Powell and Secretary Rice? You 
said you are processing emails.
    Ms. Barr. For Clinton.
    Mr. Cummings. Yeah. But what emails are you processing for 
Secretary Powell and--listen to me--Secretary Powell? Any?
    Ms. Barr. No.
    Mr. Cummings. Are you processing any for Secretary Rice?
    Ms. Barr. No.
    Mr. Cummings. All right. Thank you.
    I yield back.
    Chairman Chaffetz. I now recognize the gentlewoman from the 
District of Columbia, Ms. Norton, for 5 minutes.
    Ms. Norton. I understand, Ms. Barr, while we have Secretary 
Clinton's, we don't have any from Secretary Powell because he 
didn't save his. Is that right?
    Ms. Barr. Yes, ma'am.
    Ms. Norton. Thank you.
    Now, when we get a chronic problem like this that keeps 
coming back, we often set up an officer or another department 
or another part of government to help us out. So I of course 
noticed, indeed, in fact, in H.R. 653 there is the creation of 
a Chief FOIA Officers Council. It would be run jointly by the 
DOJ's Office of Information Policy and the Office of Government 
Information.
    This question is initially for Ms. Pustay because your 
office would be tasked to run the Office of Government 
Information Services. Do you support the notion of a Chief FOIA 
Officers Council.
    Ms. Pustay. I'm not prepared today to answer any specific 
questions about a specific legislative proposal. But what I can 
tell you is that chief FOIA officers, who are designated high-
level officials within each agency, designated by law with the 
FOIA as it currently exists, I think really hold the key to 
helping improve FOIA across the government, and we do a lot to 
work with chief FOIA officers. Because the idea there is that 
you want a high-level official in every agency who has 
authority and responsibility to make sure that the FOIA 
operations have sufficient staffing, have sufficient attention, 
have the resources that they need to operate.
    And gearing off that important role that a chief FOIA 
officer plays, starting in 2009 with Attorney General Holder's 
guidelines, we created a mechanism called the Chief FOIA 
Officer Report, and every year we ask, we at OIP, at the 
Department of Justice, we ask chief FOIA officers to report to 
us every year on the steps they have taken to improve FOIA 
compliance. And we address a range of issues, use of 
technology, proactive disclosures, timeliness in responding to 
a request. And every year we have been changing the metrics 
that we ask and the questions that we ask of those chief FOIA 
officers, because as we see FOIA processes improve, or as we 
see steps taken to improve FOIA, we want to keep pushing 
agencies to do more and to do better. So it is an evolving 
process for us.
    So I think that we have a lot of really good mechanisms in 
place right now that take advantage of the position of the 
chief FOIA officer.
    Ms. Norton. Well, let me turn to the chief FOIA officers. 
How do each of you feel about the notion of a Chief FOIA 
Officers Council? Would it be beneficial to you in any way?
    Ms. Neuman. It is an interesting idea. I would have to give 
that some thought. And after doing so, I would be happy to 
share my thoughts with you.
    Ms. Norton. Have you given any thought to that? You are the 
ones that it seems to me ought to be consulted about this.
    Mr. Fontenot. Yes, ma'am. I have not given thought to this 
as of now, but I am happy to take that back.
    Ms. Norton. Well, I think the committee would benefit from 
your advice and counsel, particularly since there has been a 
subcommittee hearing here. The Subcommittee on Government 
Operations had a FOIA hearing and heard from Frederick Sadler. 
He has previously served as a FOIA officer at the Food and Drug 
Administration. Let me read to you what he says. ``It would 
seem appropriate to require agency representation at the 
highest level possible when the individual is also the most 
knowledgeable. Past experience has shown that not every chief 
FOIA officer has the skill set, since this is by definition not 
necessarily that individual's specialty.''
    Ms. Barr, I will start with you. Do you agree with Mr. 
Sadler's comment.
    Ms. Barr. I think it would depend on how that person--each 
agency organizes this issue differently. For the State 
Department, I am the chief FOIA officer, but I also have a lot 
of other responsibilities. So I have a deputy assistant 
secretary that is an expert in these issues, and I consult very 
closely with that person.
    Ms. Norton. What about the exchange of ideas across agency 
lines? Do you believe that sharing of information about agency 
experience and their ideas, their own best practices, what they 
have done right or wrong, would improve the implementation of 
FOIA? Would the FOIA officers have a view on that?
    Ms. Pustay. I mean, I can certainly tell you that we 
definitely think that's incredibly important, and we have many 
mechanisms to share best practices. We have what I mentioned in 
my testimony, was the creation of a Best Practices Workshop 
Series where the whole idea is to identify a topic. And as I 
mentioned, our very first topic was improving timeliness and 
reducing backlogs. And then identify agencies that have 
achieved success in that area, and then have them come and 
speak to a gathering of anyone, every interested agency 
employee, and share their best practices so that we can 
leverage success across the government.
    Then what we have done at OIP is take that even further in 
that we have created a dedicated Web page on OIP's Web site 
connected to the Best Practices Workshop Series where we list 
the best practices that came out of each of these sessions. We 
have also issued guidance in relation to the best practices.
    So it's something that we have been doing already for a 
full year now, and we feel that it's been very successful, and 
it's a very important way to have agencies be able to 
capitalize on the good things and the innovations that one 
another is doing.
    Chairman Chaffetz. Thank the gentlewoman.
    I now recognize the gentleman from North Carolina for 5 
minutes.
    Mr. Walker. Thank you, Mr. Chairman. I would like to yield 
my time to the gentleman from South Carolina.
    Mr. Gowdy. I thank my friend from North Carolina.
    Ms. Barr, I appreciate you talking with me earlier. I want 
to pick back up where we were. I was seeking some level of 
assurance from you, to the extent that you could give one, that 
what was produced to the State Department did, in fact, 
represent the full universe of what would be public records. 
And, again, I have no interest in private documents. I really 
could care less. I am interested in making sure the whole 
public universe is complete.
    So what assurance can you give the public that the State 
Department has everything that would be considered a public 
record from her tenure as Secretary of State?
    Ms. Barr. She has assured us that she gave us everything 
she had. And like we do with other Federal employees, we have 
to depend on them to provide that information to us. So we have 
the documents, and we have accepted her assurance that she has 
given us everything that she had which should be a part of our 
official records.
    Mr. Gowdy. Well, you mentioned other Federal employees, 
which got me wondering. And I wrote down a list of some of the 
other Cabinet-level folks that I have worked with in my time 
here. Attorney General Holder, did he have his own server?
    Ms. Pustay. Are you asking me?
    Mr. Gowdy. I am asking whoever can answer it.
    Ms. Pustay. I can let you know that Attorney General Holder 
used an official DOJ account.
    Mr. Gowdy. He did. How about new Attorney General Lynch, 
does she have a personal server?
    Ms. Pustay. Same as well. She is using an official DOJ 
account.
    Mr. Gowdy. What about President Obama, is there any 
indication? Because if you are going to pursue the theory of 
convenience, I can't really imagine a busier person on the 
globe than President Obama. Did he have his own personal 
server?
    Ms. Barr?
    Ms. Barr. I have no knowledge.
    Mr. Gowdy. Well, the reason I am asking is because you said 
that you are doing it the exact same way you would with any 
other public official. And my point is, because of this 
arrangement that the former Secretary had with herself, you are 
not in a position to do it the same as you would with any other 
public official because Vice President Biden and President 
Obama don't have their personal attorneys going through their 
emails to decide what to return and what not to return.
    I assume your position is an apolitical, nonpolitical, 
unbiased position. Am I correct in that assumption?
    Ms. Barr. Yes, sir.
    Mr. Gowdy. And I believe the Department of State has an 
inspector general. Am I right?
    Ms. Barr. Yes, and we have asked the inspector general to 
look into some of these issues. We are cooperating with them.
    Mr. Gowdy. I know you have, and I didn't mean to suggest 
otherwise. Do you know who nominated the current inspector 
general?
    Ms. Barr. I don't have that information at my fingertips, 
but I can get back to you.
    Mr. Gowdy. You don't have to, because it was President 
Obama. Do you know who controlled the Senate when he was 
confirmed? Do you know what the vote was? It was unanimous.
    Ms. Barr. I knew you were going to give me that 
information.
    Mr. Gowdy. It was unanimous. Those may be the only 
questions I can answer today, but I do know the answer to those 
two. President Obama nominated the current inspector general, 
and he was unanimously confirmed by a Senate controlled at the 
time by Democrats, which makes me think that he, like you, is a 
neutral, detached arbiter who is solely interested in 
separating what should be in the public domain from what should 
be purely personal.
    So why not let the inspector general look at all the 
records just to make absolutely sure, and that way we are not 
in a position of having to take someone's lawyer's word for it? 
Why not do that?
    Ms. Barr. Well, it was my understanding that--you are 
talking about the email collection, not the entire process?
    Mr. Gowdy. No. I am talking about--I mean, you have been 
put in the position of having to take a lawyer's word that you 
have all the public records. And perhaps it is just the 
cynicism of actually being a lawyer. I am just wondering who 
with a fiduciary duty to the public can make sure that the 
public record is complete. Instead of the former Secretary 
hiring an attorney to do it, why can't the attorney that works 
for all of us, why can't the inspector general do it?
    Ms. Barr. So you are asking me why can't the inspector 
general make the determination of whether we received all of 
the emails?
    Mr. Gowdy. Yes.
    Ms. Barr. I really can't speculate on that.
    Mr. Gowdy. Well, I am out of time. Hopefully I will get 
some more time, and we can speculate together after that.
    I yield back to the chairman.
    Chairman Chaffetz. Thank you.
    I now recognize Mr. Duncan for 5 minutes.
    Mr. Duncan. Mr. Chairman, thank you for having these 
hearings. This is very, very important. And I would simply say 
that the testimony we heard in here yesterday, the record on 
these FOIA requests is simply horrendous. We heard in here 
yesterday Sharyl Attkisson say that FOIA is a pointless, 
useless shadow of its former self. She testified that it took 
over 10 years, 10 or 11 years, to get a request that she 
submitted.
    Another witness, Mr. Leopold, said that the Pentagon told 
him it would take 15 years to give him material, and they said 
they would only give it to him if he would agree never to file 
another FOIA request. And, of course, then the court ruled in 
his favor and said it was ridiculous that they came up with 
that 15-year business.
    Mr. McCraw from The New York Times who said that The New 
York Times, just that one business, had to file eight different 
lawsuits last year, FOIA lawsuits. And I am told there were 422 
FOIA lawsuits just in 2014.
    We had another witness, Cleta Mitchell, who told about the 
years she had spent litigating FOIA and brought in here 
numerous, looked like about 10 or 12 notebooks full of pages 
that finally were sent to her with practically everything, 
thousands of pages, with 100 percent on most of those pages 
totally redacted. And it really was just useless.
    I can tell you the American people think the Federal 
Government is already far too big, too out of control, and far 
too secret. And the American people are not going to stand for 
more secrecy from the Federal Government.
    And I would say to each of you and to any FOIA officers 
that might be listening that if you don't start doing better 
this committee, this Congress, is going to have come down very, 
very hard and come up with some legislation that I am sure none 
of you are going to want to live with at all.
    Ms. Pustay, can you assure me that if Chairman Chaffetz 
calls a hearing a year from now that we are going to hear a 
much better story than we have heard these past couple of days? 
I mean, you talked about timeliness and all these things that 
sound good, but surely you don't accept or don't defend a 
system that takes 10 or 15 years to grant simple requests?
    Ms. Pustay. No, of course not. What we do every day at OIP 
is work very hard to try to help agencies improve their 
administration of the FOIA, and we do that through a number of 
ways. And we want fundamentally for all agency professionals 
who are handling FOIA requests to understand the law and 
understand their obligations. And that is why we focus so much 
on training and why we're so happy that we were able to 
complete e-learning training resources that are now available 
to anyone, anywhere in the world, free of charge, because at 
its foundation we need trained FOIA professionals.
    But we also want to make sure that there is good customer 
service, as I mentioned, so that requesters understand the 
process and know what's happening. We also want to use 
technology to find greater efficiencies in processing FOIA 
requests so that we can proceed more quickly.
    So there are a lot of things that we can do, and we are 
trying very hard to help agencies do better.
    Mr. Duncan. Well, I'm assuming that there are some requests 
that are granted without--I hope that there are some requests 
being granted without forcing lawsuits over it, but I am told 
that almost all of these lawsuits, these FOIA lawsuits have 
ended up with rulings in favor of the plaintiffs and against 
the Department.
    Ms. Pustay. I mean, respectfully, Congressman, that is 
really just not accurate. The number of lawsuits is really 
small in comparison to the number of requests we get, 700,000 
requests, 400-some lawsuits. So it is like 1 percent of 
requests go to lawsuits.
    We don't want anybody to have to go. It is an important 
right to have a judicial review of an agency's action, but of 
course we don't want requesters to feel that that is where they 
have to go.
    Mr. Duncan. Well, do you agree that you need to do better, 
that this system must be improved and must be faster?
    Ms. Pustay. We're constantly looking for ways to improve 
it, and we constantly want things to be faster.
    I just also want to say that in terms of the results of 
litigation, the Administrative Conference on U.S. Courts, ACUS, 
did a study of just that exact point, of who prevails and who 
doesn't prevail in FOIA lawsuits, and they found that year 
after year the government prevailed in FOIA lawsuits over 80 
percent of the time. So I want to correct that misstatement 
that was conveyed to you.
    Mr. Duncan. But you do accept the fact that when we have 
requests that are taking 10 or 15 years to grant, that the 
system is broken?
    Ms. Pustay. It is not that the system is broken. The system 
works well for many requesters. And, I mean, since 2009 
agencies have responded to nearly 4 million requests. So every 
time a student gets their information for their paper or a 
reporter gets information for his article, that's a success 
story for FOIA.
    But at the same time I'm not saying there are not problems, 
and I'm not saying there are not areas where we can improve, 
and that is what I try to focus on in my office really every 
single day, is to try to help agencies improve.
    Mr. Duncan. Well, we heard yesterday about some problems 
that we shouldn't have been hearing about, I can tell you that.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentleman from Ohio, Mr. Jordan, for 5 
minutes.
    Mr. Jordan. I thank the chairman.
    Ms. Howard, you had an exchange earlier--I apologize, I 
couldn't be here--but you had an exchange with the chairman 
where you referenced a special project team that was created to 
deal with requests for information concerning the targeting and 
a former employee at the Internal Revenue Service, Lois Lerner. 
I just had some basic questions. When did the special project 
team start?
    Ms. Howard. My understanding was that it started soon after 
the request came from Congress and other investigators asking 
for documents around this whole issue. So that would have been 
somewhere in the spring, early summer of 2013.
    Mr. Jordan. About 2 years ago, okay, a little over 2 years. 
And that was the reason why, to deal with requests from 
Congress? Or was it also requests from outside folks, people 
like we heard from yesterday, who represented groups who had 
been targeted, was it to deal with that as well?
    Ms. Howard. It was, because there was a recognition that 
most of the documents would be responsive to both Congress, the 
investigators, and the FOIAs, and so we centralized the process 
for gathering them and redacting them----
    Mr. Jordan. And was that unusual, for the IRS to do such a 
thing, to create such an entity?
    Ms. Howard. I think it was a normal response to an unusual 
situation. I see the IRS doing this on an ongoing basis, when 
we have surges of work----
    Mr. Jordan. So it is not unusual for them to put together a 
special team?
    Ms. Howard. It is not unusual for us to gather together 
resources that are going to be focused on achieving----
    Mr. Jordan. Are they called special teams? I mean, I am 
using the words you----
    Ms. Howard. Yeah. And if I gave you the impression that 
there was a title called special team, that's probably not 
correct.
    Mr. Jordan. I'm just using what you said, special project 
team.
    Ms. Howard. It was a project team put together----
    Mr. Jordan. Okay. And who was on that team?
    Ms. Howard. My firsthand knowledge of that is none.
    Mr. Jordan. You can't tell us who was on it?
    Ms. Howard. I can't tell you who was on it, no. I know that 
it was made up mostly of chief counsel, their attorneys. They 
pulled them offline to work on them. We took resources that 
were familiar with 6103.
    Mr. Jordan. Okay, I'm going to me stop you there. You 
mentioned chief counsel. So was the Chief Counsel at the 
Internal Revenue Service part of the special project team 
created shortly after it became known that there was targeting 
going on approximately 2 years ago?
    Ms. Howard. I have no personal knowledge. You would have to 
ask him or the Commissioner that.
    Mr. Jordan. Well, I mean, we will do that. Is it your 
assumption or do you believe--you're the one who brought up 
special counsel both in your response to Mr. Chaffetz earlier--
not special counsel, but chief counsel. Do you think the Chief 
Counsel was part of the team?
    Ms. Howard. I think there were hundreds of attorneys that 
were part of the team, and I think that it was a production 
team. It was a way to amass documents and mass produce them.
    Mr. Jordan. All right. And you were asked by the chairman 
earlier about do you have any interaction with the White House 
before you release information, and I am quoting from your 
response. ``To the extent that I have been involved in 
responses to Congress or to FOIA, we have never shared 
information with the White House.'' Accurate? That was your 
response?
    Ms. Howard. Yes.
    Mr. Jordan. You go on to say in that same answer to the 
chairman: ``I can't speak for the entire IRS. That would be a 
question for the Chief Counsel or the Commissioner. I can 
simply speak for the Disclosure Office in FOIA progress. We do 
not interact with the White House.''
    Do you know if the special project team that was put 
together, gathering all this information, most likely had the 
Chief Counsel on it, do you know if they were checking with the 
White House before they gave information to Congress and/or 
other FOIA requests?
    Ms. Howard. I have no personal knowledge of how that team 
acted, except that I know that they amassed hundreds of 
attorneys to go through the documents and redact them for 6103.
    Mr. Jordan. Do you think it's likely that the Chief Counsel 
talked with the White House before he gave the information to 
Congress?
    Ms. Howard. I think it's unlikely, but I don't know.
    Mr. Jordan. You think it's unlikely. Well, that would be in 
direction contradiction to the memo sent to every chief counsel 
back when this administration first started, April 15, 2009: 
``The need to consult with the White House arises with respect 
to all types of document requests, including congressional 
committee requests, GAO requests, judicial subpoenas, and FOIA 
requests.''
    So we have this memo from Greg Craig to all chief counsels. 
You're telling me it's likely the Chief Counsel of the IRS was 
part of this special project team created just to deal with 
requests about the targeting and Lois Lerner. And then you're 
saying you think it's unlikely that they actually checked with 
the White House, which would be a direct contradiction to what 
they were told to do by the White House Chief Counsel.
    Ms. Howard. Except that the memo does specify documents 
with White House equities. I'm not sure that the documents we 
had----
    Mr. Jordan. You don't think the White House has an interest 
in knowing about information related to the Internal Revenue 
Service targeting people? You don't think they have an interest 
in that? Equities is an interest, right? They have an interest 
in that. This is all document requests that may involve--may 
involve--White House interests. That's pretty broad.
    And then the next paragraph gives clarification of that and 
says congressional committee requests, which you said is the 
reason the special project team was created, not to mention GAO 
requests, judicial responses, and FOIA requests.
    So I would say if the Chief Counsel, who is most likely 
part of this special project team, which is something I think 
we are going to find out, and the chairman will be pushing for 
that, if he is likely part of this special project team, he 
wouldn't be following the memo if he wasn't consulting with the 
White House. Do you agree?
    Ms. Howard. Sir, the special project team was put together 
not because the responses were due to Congress, but because of 
the volume and the number of investigators and the scope of the 
documents that were needed. It was a business reason, a 
business process.
    Mr. Jordan. Well, I'm out of time. Thank you, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman.
    I am going to now recognize myself. I have a series of 
questions I need to do before we wrap up, and members may have 
some other questions.
    Ms. Howard, I want to give you an opportunity to talk about 
the IT challenges that the IRS has and what you are dealing 
with. What sort of software are you dealing with, and how bad 
is it?
    Ms. Howard. I believe it was Congressman Carter when he was 
speaking referred to the fact that he had an opportunity to go 
onto a search engine on his personal computer. He put in a few 
key words that had to do with FOIA. He pushed a button, and he 
got all kinds of responses. That is just not the way it works 
in IRS. We don't have that library of electronic documents that 
we can go in and search through a Google or Bing or any of the 
other search engines that you might have. We need the ability 
to actually tag those records so that we know what they are, 
who created them, how they were created.
    Chairman Chaffetz. Can you do key word searches?
    Ms. Howard. We can do key word searches within accounts. So 
that means if you're going to look for emails, I would have to 
look at your account, my account, anyone's account that might 
be involved, account by account, and then look within each of 
those emails.
    Chairman Chaffetz. You can't do a massive look into----
    Ms. Howard. It involves downloading everything into some 
sort of massive database.
    Chairman Chaffetz. What software do you use?
    Ms. Howard. That would be a question for the IT person.
    Chairman Chaffetz. You don't know what software you use on 
your computer?
    Ms. Howard. What software I use on my computer?
    Chairman Chaffetz. Yeah.
    Ms. Howard. Well, I have a Microsoft suite of products, 
including Outlook Exchange.
    Chairman Chaffetz. So you use Outlook.
    Ms. Howard. Uh-huh.
    Chairman Chaffetz. You can't type a word into Outlook and 
search your database?
    Ms. Howard. I can my own account.
    Chairman Chaffetz. We'll have to dive deeper into this. And 
I'd like actually if each of you, each of the five of you can 
help us understand how bad or how good you think the IT 
situation is.
    Ms. Howard. I just want to add too that once you get the 
documents you still have to go through line by line by line to 
look for 6103 redactions and then the other exemptions within 
FOIA. So it is not just about the IT, but certainly that's a 
huge thing in IRS.
    Chairman Chaffetz. Ms. Neuman, you mentioned the budget 
detail worksheet that would be released in June of this year, 
which will be any time. Do you have that yet, and if so, can 
you provide it to this committee?
    Ms. Neuman. I do not have that yet.
    Chairman Chaffetz. Sorry, you've got to be a little closer 
to the mic there. Go ahead.
    Ms. Neuman. I'm sorry. I am not aware that it has been 
completed yet. I will check with my Deputy Chief FOIA Officer, 
and if it has, I will be happy to certainly provide it to you.
    Chairman Chaffetz. When it is complete, and you didn't 
represent that it was complete, but when it is complete, can 
you please share that with this committee?
    Ms. Neuman. Absolutely.
    Chairman Chaffetz. One of the questions we have is about 
the charges that are given to the public and the expenses that 
they have.
    Let me start with you. Let me go back to Ms. Howard here. 
Oftentimes people are frustrated because the law says you need 
to respond within 20 days. You can give another 10-day 
extension. But then oftentimes it's months before they hear 
again. How do you pick those dates?
    Ms. Howard. I think mainly they are just an approximation 
of when we think the document production will be done. 
Certainly in the case of the (c)(4) issues or the (c)(4) cases 
we had just no idea of the volume of documents that would be 
required and how long it would actually take for the responses 
to Congress and the investigators to be completed.
    Chairman Chaffetz. So when you do the search, do you send a 
request out to anybody you think might have it and you count on 
them to individually do it? You're not able to----
    Ms. Howard. Yes.
    Chairman Chaffetz. There is not a FOIA officer that can get 
in there and do a search term, pull up every relevant email or 
document?
    Ms. Howard. No, because there is no library. There is no 
massive----
    Chairman Chaffetz. Well, there is, there is. This is a 
fallacy. It's wrong to say there is no library. It's called 
email. And the reason we moved away from carbon copies and big 
warehouses with stacks and volumes of file folders is because 
electronically you can push a button, do a search, and generate 
that. This is the year 2015 here. We are not in the stone ages 
trying to knock something out and copy it on a stone. So don't 
tell me there is not a database. It's called email, and it's 
called Microsoft. They're a big company.
    Ms. Howard. It's folder by folder by folder by folder, 
account by account by account by account.
    Chairman Chaffetz. And it's magic. You get a 28-year-old IT 
person in there and they can find that in a couple hours. And 
that's why we don't believe you. This is why we don't believe. 
Don't say there's not a database. It's called email. Right?
    Ms. Howard. My understanding is that the capabilities of 
the system we have do not enable us to do that except account 
by account by account.
    Chairman Chaffetz. And I just fundamentally and totally do 
not understand that.
    And I don't understand how you all pick dates. Can you 
please try to explain--we don't have time, because, I mean, it 
would take you 10 minutes each to try to explain this.
    The frustration for so many people is they don't get 
exposure, they don't know when. And sometimes they last months 
and years. Sometimes it's very legitimate. They need some 
exposure to that, but there seems to be this great deal of 
mystery as to why you say, well, it'll be July, and then July 
comes, the next thing you know it's October. It just seems like 
a slow walk. So can you help explain to us why and how you pick 
the dates?
    I also would appreciate from Homeland Security if they 
could help us understand the new rulemaking that they're 
involved with, with FOIA. The FOIA law is the law, so why do 
you have to develop new rulemaking, and what in the world is 
that going to look like?
    Ms. Neuman. Are you asking me a question?
    Chairman Chaffetz. Yeah.
    Ms. Neuman. So the GAO report recommended that we finalize 
our interim FOIA regulation which embodies FOIA policy and 
guidance at the Department. The rulemaking process is underway. 
We are preparing to issue it for public comment, after which we 
will review the comments very carefully and the rule will be 
finalized.
    Chairman Chaffetz. We will be watching that, because if 
Homeland Security thinks that they are going to come up with a 
whole nother new set of rules that's different, this is again 
one of the frustrations. FOIA is what FOIA is, but every time 
you go to a different department and agency they got a whole 
set of standards. They got different rules. They don't have 
standards where you just plug and play and operate equally, and 
that's a frustration.
    Ms. Neuman. And the rule is really an implementing 
regulation. It is not intended, nor do I believe----
    Chairman Chaffetz. We are fascinated to see it.
    The other thing I am terribly frustrated at is we talked 
about the scorecard. And I believe this is put out by the 
Department of Justice, right, you come in and do this 
evaluation. And there is a color-coded scheme here, and it is 
different categories of presumption of openness, effective 
system in place for responding, proactive disclosure, improved 
timeliness, and backlog reduction.
    Ms. Neuman. Right.
    Chairman Chaffetz. And if you sat and listened to the sum 
testimony of today and compare it to yesterday, I mean, we had 
as wide array of people as you can possibly have, from 
individuals, to the New York Times, to the ACLU, to a former 
CBS News reporter, to Vice. I mean, we got as wide of a swath 
of people as we possibly could, and there wasn't anybody that 
believed that in general things were going well. And yet when 
you do your own scorecard, for instance at the Department of 
Justice, you're solid green. You gave yourself 5 out of 5 on 
presumption of openness, 5 out of 5 in an effective system in 
place for responding.
    Proactive disclosure, are you kidding me? The Department of 
Justice gives themselves a 5 out of 5 on proactive disclosure? 
Do you think anybody in the world believes the Department of 
Justice is the most, they are at the top of their game, they 
got an A-plus, 5 for 5, do you really believe that.
    Ms. Pustay. I do. I absolutely do.
    Chairman Chaffetz. Man, you live in la la land. That's the 
problem.
    Ms. Pustay. I live in the real world, Congressman.
    Chairman Chaffetz. You live in fantasy land, because it 
ain't working.
    You're a very nice person, and I'm sure most of the people 
are very nice people. It ain't working. Five hundred and fifty 
thousand times Americans put forward a request and got a 
rejection saying doesn't qualify. Do you think that's working? 
Is that a presumption of openness? Do you think that's 
proactive disclosure? I beg to differ. I think it is absolutely 
fundamentally wrong. We are at the heart of why I think there 
is a problem, because you all think you're doing a great job.
    Ms. Pustay. Right. We are constantly evaluating, not just 
how we do at DOJ----
    Chairman Chaffetz. And your evaluation says you have no 
room for improvement.
    Ms. Pustay. That's not true at all.
    Chairman Chaffetz. Then why do you give yourself 5 out of 
5?
    Ms. Pustay. You aren't looking at the whole of all the 
different categories.
    Chairman Chaffetz. Yes, I am. I will go through each and 
every one of them. I just read the different disclosures, and 
here it is in green, all green.
    Ms. Pustay. We have green for proactive disclosures. 
Proactive disclosures are making available to the public 
information----
    Chairman Chaffetz. Presumption of openness
    Ms. Pustay. Exactly.
    Chairman Chaffetz. Effective system in place for 
responding.
    Ms. Pustay. Responding to requests.
    Chairman Chaffetz. Really, you have got an effective system 
for--we can argue about this. I beg to differ. We had 11, 12 
people yesterday that absolutely differ. On a bipartisan way, I 
don't think there is anybody that would agree with you. Across 
the board most every one of you got great scores, and I just 
don't buy that.
    I want to ask specifically about the Department of Justice. 
Are you able to conduct an electronic search or do you rely on 
the individual agency employees to proactively give you the 
information?
    Ms. Pustay. What you are talking about, I think, is a 
really important improvement to FOIA administration, and we do 
have within OIP the tools that are more sophisticated tools 
that are used in the e-discovery context which allow individual 
email accounts to be dumped or to be collected into one bucket.
    Chairman Chaffetz. So you searched the universal index, is 
that right?
    Ms. Pustay. Well, I don't think it's called a universal 
index, but we have tools that allow us----
    Chairman Chaffetz. The UNI?
    Ms. Pustay. We have tools that allow us to search multiple 
email custodians simultaneously.
    Chairman Chaffetz. Do you search the electronic case files?
    Ms. Pustay. We do sometimes. We would only search case 
files if case files were relevant to a particular FOIA request. 
We have lots of different offices.
    What I want to emphasize is that technology is incredibly 
important to FOIA administration, and we have been at the 
forefront for pushing for use of more sophisticated technology 
to process and handle FOIA requests. We did a pilot at DOJ 
several years ago to show the benefits of being able to do 
things like searching multiple custodians at the same time.
    Chairman Chaffetz. So my understanding is that the FBI does 
conduct searches on the universal index, but that that system 
does not allow for text-based searches. But the FBI does not 
search the electronic case files which contain uploaded 
versions of the Bureau's nonrestricted investigative records, 
and the ECF, as it's called, the electronic case file, is text-
searchable. And that's the disconnect. I don't expect you on 
this spot to respond to that, but I do want you to get back to 
us on this specific point, if you would.
    Ms. Pustay. Sure.
    Chairman Chaffetz. Okay. I have a few more questions. I 
want you to kind of each go down the line here. We went through 
with Ms. Howard here, but let's go back to Ms. Barr. This is my 
last set of questions before I change my mind and ask another 
one.
    I want to know what is the instruction that you believe you 
have been given to interact with the White House? What 
percentage of the documents do you give to the White House or 
somebody who represents the White House? What is the 
expectation that you share information with them? Do you need 
their approval before you send it back out? How does that work?
    Because this directive is really concise, clear, short, 
three paragraphs. I mean, they essentially want you to give 
them everything. And so my question is, what do you have to do 
in order to fulfill the demand from the White House that you 
give them everything before you give it to us or to the media 
or to the judicial branch?
    Ms. Barr. Well, we have a standard process that we follow 
for FOIA, and it does include, if the White House has an equity 
in a document that we are working on, we do consult with them 
as appropriate. But we follow the standard FOIA process.
    Chairman Chaffetz. How do you determine if it's a White 
House equity? I mean, what is not an equity?
    Ms. Barr. When we get a request in we have a team of 
reviewers, and many of these reviewers, because so much of our 
work deals with things overseas, for the most part they are 
retired foreign service officers, and some of them are even 
foreign ambassadors. In fact, we have quite a few.
    They look at it. We decide where we need to search for 
documents. And then once we get the results of that document 
search back, then we go through line by line. And at that point 
we look at whether or not we need to coordinate with other 
agencies. And that would be when we would include the White 
House, if after they get these materials back they decide that 
they have an interest in that document.
    Chairman Chaffetz. And who at the White House do you send 
them to?
    Ms. Barr. I'm not familiar with who exactly, but I can take 
that back.
    Chairman Chaffetz. If you could let us know, we'd 
appreciate it.
    Chairman Chaffetz. Ms. Pustay?
    Ms. Pustay. What I can tell you is that the process of 
consulting with other agencies, which includes the White House, 
has not changed. This memo reflects the same practice that we 
have had administration to administration. I have been doing 
this a long time. And the word equity is really just sort of a 
more modern term. But what is captured by the memo and what has 
been consistent from administration to administration is that 
when an agency finds communications that originated with 
another entity or that reflect a communication with the other 
entity, that's when an agency as a matter of good practice 
consults with that other entity to get their views on the 
sensitivity of the material. And oftentimes that can include, 
of course, getting their views that it's okay to release the 
material. So it's communications is what happens, the memo.
    Chairman Chaffetz. I think it's a big source of why it's so 
slowed down. So what percentage of the information do you have 
to share with the White House before you share it with us?
    Ms. Pustay. I can speak obviously just to FOIA requests. I 
don't know the percentage of requests that have the equity of 
any particular----
    Chairman Chaffetz. Okay.
    Ms. Neuman.
    Ms. Neuman. Yes. It is my understanding that with respect 
to the White House, this happens very infrequently.
    Chairman Chaffetz. Happens what?
    Ms. Neuman. Very infrequently.
    Chairman Chaffetz. Why? I mean, the memo says it should 
happen on everything.
    Ms. Neuman. Well, again, it is my understanding, and I 
don't process these requests or get involved in these kinds of 
consultations, but my understanding is that the kinds of 
requests we get don't involve, quote, White House equities. 
And, of course, when the request comes in, if there is an 
indication that it is a request for White House records or 
White House information, that would trigger the consultation.
    Chairman Chaffetz. Well, no, it doesn't. I'm not talking 
about White House. I'm saying if you have information in your 
possession at Homeland and it comes from a Member of Congress, 
the judicial branch, it was a FOIA request, a GAO request, that 
it should be shared with the White House. You are telling me 
you don't do that?
    Ms. Neuman. No, no. I am saying that we do, we follow DOJ-
issued guidelines that require consultation not only with the 
White House----
    Chairman Chaffetz. Well, what about the White House- issued 
guidelines, because I am reading to you the guidelines. We 
handed you a copy of them. This is the guidelines. You don't 
abide by it, or you do abide by it?
    Ms. Neuman. And we adhere to this memo in accordance with 
the DOJ guidance on that. We also report all such consultations 
publicly in our FOIA reports. So you asked a question about 
whether these consultations slow down or create additional 
delay in the process? I have implemented some procedures to try 
to minimize that delay or a delay associated with any 
consultations, including directing a senior professional member 
of my FOIA team to be the point of contact for those 
consultations.
    Chairman Chaffetz. And they communicate with who at the 
White House?
    Ms. Neuman. I would have to ask them.
    Chairman Chaffetz. We're not getting much. We'll try Mr. 
Fontenot.
    Mr. Fontenot. Thank you. Again, I do not process specific 
FOIA requests, but Treasury follows the Department of Justice 
guidance from 2011 concerning FOIA referrals and consultations. 
We consult with agencies and entities concerning documents that 
originated at those agencies or in communication with those 
agencies.
    And obviously in this respect Treasury may consult with 
staff from the Executive Office of the President or the White 
House when those documents either originate or relate to the 
White House. Again, we treat the White House just like any 
other agency related to FOIA.
    Chairman Chaffetz. You were on a roll. I was believing 
everything you said until you said that last sentence. You're 
nuts if you think you're treating the White House exactly the 
same you treat the Bureau of Indian Affairs. There's no way 
that's happening.
    So with all due respect, we're trying to get our hands and 
a grip on it. We would like some feedback on this.
    Chairman Chaffetz. I think the directive from the White 
House is crystal clear, and we will continue to pursue that.
    I am well over time. I will now recognize the gentleman 
from Maryland, Mr. Cummings, the ranking member.
    Mr. Cummings. Thank you very much.
    I think a lot of times I sit in these hearings and I try to 
figure out where we're going. You all have to help me help you. 
I said to you a little bit earlier, Ms. Neuman, I wanted you 
all to get back to me with information as to--all of you--as to 
things that we could do to make things better. It's kind of 
hard to do that when you think you're almost perfect, though. 
I'm serious.
    Did you all watch the testimony, did any of you all watch 
the testimony yesterday? Any of you? Hello? Anybody?
    All right, I'll go to Ms. Barr. Did you watch any of the 
testimony yesterday?
    Ms. Barr. I just heard some of it, but I wanted to focus on 
preparing for today.
    Mr. Cummings. No problem.
    Did you.
    Ms. Pustay. Right. As I mentioned, I was updated throughout 
the day on the testimony.
    Ms. Neuman. As was I while I was preparing for the hearing.
    Mr. Fontenot. I watched part of the hearing.
    Ms. Howard. I watched most of it.
    Mr. Cummings. All right. Fine. And when you hear the 
testimony that you all gave today compared to what we heard 
yesterday, it seems like a world of difference. And let me tell 
you what I think is part of the problem.
    I do think a personnel issue is part of the problem. I 
mean, logic tells you that when you've got less people and 
you've got more demand, you're going to have problems. I mean, 
period. I also think that there are a lot of things that you 
all are doing right. I mean, doing a great job at. And then I 
think there are some cases that are maybe a little bit more 
complicated, a little more controversial, and so the process is 
slowed down a little bit, and in some instances perhaps a lot.
    I mean, just listening to everything that has been said 
between yesterday and today, that's where I come down on this. 
And some kind of way we got to get past where we are because I 
think we could do better. It's easy to say that we are scoring 
excellent in this dot, dot, dot, dot that ain't true, folks. 
It's not.
    So some kind of way we've got to close this gap. And the 
only way we're going to do it is that we have to be frank with 
each other and we've got to begin to set some kind of, I want 
to say goals, but the things, whatever you're going to send us 
back are things that you should be doing that could be better, 
and set some deadlines with regard to making those things 
happen. Other than that, it's going to get worse. I'm telling 
you, it's going to get worse.
    So I'm hoping that you all will do that. I have discovered 
from being on this Hill for 20 years now almost that you almost 
have to--we have to set deadlines to get things done. And I've 
also noticed that a lot of times people who come before us, 
they have a tendency sometimes to outwait us. In other words, 
they know that the Congress is going to change. They know that 
we're going to move on to something else. And then the next 
thing you know, things don't get done, and then they look 
towards the new Congress, and then it's worse, and then we just 
go through these circles over and over again. You have to have 
been here for a while to see this cycle, and I've seen it.
    So going to you, Ms. Barr, I want to just ask a few 
questions, because I want to clear up this thing. I mean, we're 
making a big deal with regard to Secretary Clinton. My 
colleague, the gentleman from South Carolina, Mr. Gowdy, who I 
have a tremendous amount of respect for, suggested that we 
should not take Secretary Clinton's word for the fact that she 
has produced all her emails relating to official business. He 
also suggested that Secretary Clinton's lawyers do not have any 
duty to ensure compliance with the Federal records laws.
    But, Ms. Barr, let's look at former Secretary Rice. Last 
fall the State Department asked her, along with other 
secretaries, for information about official emails on their 
personal accounts. Is that right?
    Ms. Barr. Yes, sir.
    Mr. Cummings. And former Secretary Rice did not respond to 
the Department herself in response to your letter last fall. 
She had a representative do that. That's what it says in the 
State Department's report sent to the National Archives on this 
issue. Do you know who Secretary Rice's representative is?
    Ms. Barr. No, not offhand, sir, but I can find out.
    Mr. Cummings. Do you know whether it's an attorney?
    Ms. Barr. I assume so, yes.
    Mr. Cummings. Okay. According to the report the Department 
sent to the archives, former Secretary Rice's representatives 
claimed that she did not use her personal email account for 
official business. Do you know what his assertion was based on? 
Do you have any idea?
    Ms. Barr. Personally, just what was told to us. I don't 
have personal knowledge of what was said.
    Mr. Cummings. Okay. And so you don't know whether she told 
him that or he reviewed the documents? You don't know?
    Ms. Barr. That is true.
    Mr. Cummings. Did you know if he thoroughly reviewed her 
personal email account to find emails relating to official 
business or did he just take her word? You don't know. Is that 
your testimony?
    Ms. Barr. Yes.
    Mr. Cummings. So let me just state for the record that when 
dozens of White House officials under the Bush administration 
were using private email accounts at the RNC, we worked with 
their attorneys to ensure that they were recovering official 
emails and producing them. We did not suggest subpoenaing their 
servers. We relied on them to go through their documents, 
identify documents responsive to our requests, and produce them 
to us. Attorneys do have a legal obligation to provide us with 
truthful information, and this is the same process we use for 
virtually every investigation we conduct.
    Ms. Howard, I take it that you're getting ready to retire. 
Is that what you've been trying tell us? You're not on your way 
out the door today, are you?
    Ms. Howard. Not today, no.
    Mr. Cummings. How soon will you be gone?
    Ms. Howard. I don't now. I think about that all the time.
    Mr. Cummings. Take your time.
    Ms. Howard. Like many people in IRS, I am eligible to 
retire. And what keeps me working is the dedication of my 
employees and the professionalism of my colleagues at IRS.
    Mr. Cummings. Well, we appreciate all of you and the 
employees that work with you.
    What can we do to improve the system?
    And then I will be finished, Mr. Chairman. This is where I 
want to wrap up.
    Ms. Howard. From our standpoint, we would like advanced 
technology I think just to make it easier to do the searches. 
We would also like at IRS, we would like access to a really 
good FOIA system that would help us be more consistent and 
accurate with our redactions so that we could get more done 
with the same amount of people.
    The other thing that my folks do in Disclosure, other than 
just the FOIAs, is they are responsible for doing 6103 
redactions for subpoenaed information around litigation, and 
also for just making sure that the employees across IRS who 
have interaction with taxpayers know the disclosure laws and 
have their questions about disclosure answered as they need 
them on a day-to-day basis.
    So we have those responsibilities too. And I think the 
technology would go a long way. We would like additional staff. 
I think that what we see is a trend in the complexity of 
requests. So instead of requests being for mostly taxpayers 
asking for their own files, we're seeing more and more of the 
types of requests that you had witnesses speaking about 
yesterday that are very expansive in their scope and nature and 
rely on us going to multiple custodians to find and retrieve 
those records and then volumes and volumes of pages.
    So we need people. We need people who are trained well in 
the exemptions. And we need technology to help us with all of 
that.
    Mr. Cummings. Mr. Fontenot?
    Mr. Fontenot. Again thank you. I mean, I can obviously tell 
you what we have done. The Department, we've added resources, 
we've added people, we've added----
    Mr. Cummings. What about training?
    Mr. Fontenot. We've added better data, and we've train 100 
percent of our FOIA professionals at the Department, and I 
think that is yielding results. Again, we received about 14,000 
requests overall last year, and we closed about 14,000 as well. 
Again, an improvement year over year.
    Mr. Cummings. Would you say that maybe, based upon what you 
just said----
    Mr. Fontenot. Yes, sir.
    Mr. Cummings. --you have a situation of best practices 
there?
    Mr. Fontenot. Again, we're always looking for best 
practices. We try to adopt as many best practices as we can 
from the Department of Justice. Our team works with them quite 
a bit. Again, I think we're moving in the right direction, but 
obviously we can always improve?
    Mr. Cummings. Ms. Neuman?
    Ms. Neuman. Yes, Congressman Cummings. I really appreciate 
the question, and I have been giving it quite a bit of thought. 
In my case, in the case of my agency, it's somewhat difficult 
to say right now because we are in the midst of this 
independent review that I have commissioned.
    I think it's really important that I personally understand 
what the actual systemic challenges are that are facing my 
agency so that not only we can understand how to address those, 
but so that we can communicate back with you about what it is 
we actually need, because it may be tempting to turn to what 
might seem like an obvious solution today, but that solution 
may not actually address what the actual problems are.
    I do think that FOIA as a 40-plus-year-old statute may not 
have contemplated the kind of technology that's available not 
only to seek information, but to respond to those requests, and 
to that extent I think it's worthwhile considering how the 
statute might be updated. And otherwise, I think it's a very 
good question, and I'm interested in polling my FOIA unit along 
with that and the outcome of this review. I would be delighted 
to get back to you with my thoughts.
    Mr. Cummings. I'm hoping that you all will get back to me 
within 30 days. Would you all do that, please?
    Ms. Pustay. Certainly.
    Mr. Cummings. All right, go ahead.
    Ms. Pustay. I think the number one thing from our 
perspective is that we really appreciate and need the support 
of Congress for adequate resources for FOIA. That will help us 
both with personnel and with IT. They're both inextricably 
intertwined.
    Mr. Cummings. And training.
    Ms. Pustay. And training as well, although we feel as 
though we've done very well with training with the resources 
we've just made available. We've been encouraging agencies to 
do training. We're now asking agencies and getting a very good 
response that agencies are giving their employees substantive 
FOIA training, and we ourselves provide training to thousands 
of personnel every year.
    So training I think we have handled, I think in the sense 
that we can do that now, and we're continuing to focus on that.
    Mr. Cummings. Ms. Barr?
    Ms. Barr. Technology to help us quickly go through the 
various. We have information all over the world with different 
systems. That would be helpful. And, of course, people. And at 
the same time, since we do have an inspector general taking a 
look at our processes, we also hope to get something from that 
as well.
    But it's a very serious problem, but for us it's also a 
complicated problem, just trying to get all of the information 
in the right place quickly so that we can be responsive.
    Mr. Cummings. I want to thank you all of you very much, and 
we look forward to hearing from you and working with you.
    I yield back.
    Chairman Chaffetz. Thank you.
    I thank you all to be here. I just want to make a comment 
on the IT part of the equation.
    One of the frustrations is, if you look at the amount of 
money that we pour into IT at the IRS, it's roughly $2 billion 
per year, $2 billion. Now, you have 90,000 employees, right? 
It's unfair to just divide that number and calculate out some 
$20,000-plus per person. But it's an extraordinary amount of 
money. And my guess is, if we went to almost any corporation, 
private sector, and said, ``Year over year we're going to keep 
giving you billions of dollars for your IT,'' and then to have 
such a dilapidated system, I mean, we just don't understand 
that.
    It's not as if we're not pouring resources into IT budgets. 
You have billions of dollars at your disposal. And every time I 
turn around I hear across agencies how bad it works. And I'm 
doing this off the top of my head, but it's something like $75-
plus billion a year--billion--is spent on IT in the United 
States with our government, and it doesn't work. And then we 
get data breaches. I mean, we didn't even get into the data 
breaches that are happening at the IRS.
    So we have got to get a grip on what is important, what is 
working, what is not working. And if you think that there is a 
database out there that can't be searched because Microsoft 
wasn't smart enough to think about that, we've got big, big 
problems.
    So I want to make sure that you and your staff know how 
much we do appreciate. It's a huge volume. It is supply and 
demand, and the demand has been greatly increasing, and that 
puts a lot of pressure on a lot of people. And I'm a huge 
believer that the overwhelming majority of our Federal workers, 
they work hard, they work smart, they are trying to do the 
right thing. We're trying to do the right thing too.
    So while these hearings are sometimes tough and pointed and 
direct, that's what they're supposed to do. That's our 
Constitution in motion. We are supposed to be self-critical. 
That's what we do. That's how we get better. And we can't just 
put a smiley face on everything and say, oh, it's all good.
    We want to help solve those problems. We're not only the 
Oversight Committee, but we're also supposed to be Government 
Reform, and there will be a FOIA reform bill. We passed one out 
of the committee. I want to take another breath and do several 
panels and get your perspective, the media, the outside groups, 
so that we get that thing just right. You don't get but once 
every couple decades the chance to reformulate something.
    So we're going to look back at that bill. We're going to 
see if we can't tighten up a couple other things, maybe lessen 
the number of exemptions, I think is something that we have got 
to be able to look at, and then probably speed up some of the 
other parts of the process so that it makes your job smoother 
and easier.
    And you got all these charts and graphs and, hey, what can 
we release or not. Let's do what President Obama said. Let's 
err on the side of release it. Release it. And I don't think 
your folks in your departments and your agencies have the 
freedom to do that. I think they are slowed down in what the 
New York Times called, their representative, this culture that 
says--and it has happened over a long period of time, not just 
one administration--a culture that doesn't want to make a 
mistake and consequently doesn't want to release it, and 
consequently we aren't getting the American people what they 
paid for.
    We all work for them. You all work for them. And we've got 
to be more responsive. They're telling us it's not working. And 
so we've got to change something, we can't just keep doing the 
same thing.
    So I think it has been a productive 2 days of hearings. 
Still lots more to learn. We look forward to the interaction 
with you. I thank you for your time and your patriotism and 
your dedication to the country and your government, and we 
thank you. And this committee stands adjourned.
    [Whereupon, at 12:17 p.m., the committee was adjourned.]


                               APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
               
               


                                 <all>
</pre></body></html>
